     Federal Deposit Insurance Corporation
          Department of the Treasury
Board of Governors of the Federal Reserve System


         Evaluation of Prompt
          Regulatory Action
           Implementation



                 Report Numbers

                   EVAL-11-006
                  OIG-CA-11-008
                 FRB OIG 2011-05



                 September 2011
                       Offices of Inspector General
DATE:                        September 30, 2011


MEMORANDUM TO: Ben S. Bernanke, Chairman
               Board of Governors of the Federal Reserve System

                            Martin J. Gruenberg, Acting Chairman
                            Federal Deposit Insurance Corporation

                            John G. Walsh, Acting Comptroller
                            Office of the Comptroller of the Currency


      /s/                                      /s/                              /s/
FROM: Jon T. Rymer                             Eric M. Thorson                  Mark Bialek
      Inspector General                        Inspector General                Inspector General
      Federal Deposit                          Department of the                Board of Governors of
      Insurance Corporation                    Treasury                         the Federal Reserve System


SUBJECT:             Evaluation of Prompt Regulatory Action Implementation
                     (Report Numbers: EVAL-11-006, OIG-CA-11-008, FRB OIG 2011-05)

Attached for your information is a copy of an evaluation report that the Offices of Inspector General
(OIG) recently completed concerning the implementation of prompt regulatory action (PRA). The
objectives of our evaluation were to (1) determine the purpose of and circumstances that led to the
enactment of the PRA provisions and lessons learned from the banking and thrift crisis in the 1980s and
early 1990s; (2) evaluate to what extent PRA provisions were a factor in bank failures and problem
institutions during the current crisis; (3) assess whether PRA provisions prompted federal banking
regulators to act more quickly and more forcefully to limit losses to the DIF in the current crisis in light
of lessons learned from the 1980s and early 1990s; and (4) determine whether there are other
non-capital measures that provide a leading indication of risks to the Deposit Insurance Fund that
should be considered as part of PRA.

We made one recommendation including three matters for consideration to the Federal Deposit
Insurance Corporation (FDIC), the Board of Governors of the Federal Reserve System (FRB) and the
Office of the Comptroller of the Currency intended to strengthen the effectiveness of the PRA
provisions. Each of the agency responses to our draft report and the identified planned actions address
the intent of the recommendation.
If you have questions concerning the report or would like to schedule a meeting to further discuss our
evaluation results, please contact E. Marshall Gentry, FDIC OIG, at (703) 562-6378; Marla A.
Freedman, Department of Treasury OIG, at (202) 927-5400, or Anthony J. Castaldo, FRB OIG, at
(202) 973-5024. Thank you for your assistance with this evaluation.

Attachment




                                                   2
Contents

Evaluation Objectives and Approach................................................................. 2

   Results in Brief.......................................................................................... 4

   Section I: PRA: History, Provisions, and Prior Reviews .................................. 10
         History Leading to the PRA Provisions ............................................... 10
                Lessons from the Eighties ........................................................ 11
                Reports on Deposit Insurance Reform and Use
                  of Enforcement Actions ........................................................ 12
         FDICIA and Sections 38 and 39 of FDI Act ......................................... 15
                Section 38 – Prompt Corrective Action...................................... 15
                Section 39 – Standards for Safety and Soundness...................... 16
         Prior Reviews of PRA Effectiveness .................................................... 17

   Section II: PRA: Use and Impact During the Current Crisis............................. 20
          Regulators Implemented PCA Appropriately ....................................... 20
          Inherent Limitations with PCA’s Capital-Based Framework and
                the Sudden and Severe Economic Decline Impacted PCA’s
                Effectiveness ......................................................................... 25
          Regulators Identified Deficiencies Prior to Undercapitalization............... 29
          Regulators Used Other Enforcement Actions to Respond to Safety
                and Soundness Concerns Before Undercapitalization, but After
                Financial Decline Occurred ....................................................... 33
          Regulators Made Limited Use of Section 39 to Address Deficiencies
                Identified ............................................................................... 37
          Critically Undercapitalized Institutions Were Closed Promptly,
                but Overall Losses Were Significant .......................................... 39

   Section III: PRA: Leading Indicators and Matters for Consideration ................ 45
          Ongoing Regulatory Responses to the Financial Crisis ......................... 45
          Non-Capital Leading Indicators of Bank Problems................................ 47
          Matters for Consideration ................................................................ 48
          Recommendation ............................................................................ 54
          Agency Comments and OIG Evaluation ............................................. 54

Appendices

   Appendix     1:      Objectives, Scope, and Methodology .................................... 58
   Appendix     2:      Data by Regulator............................................................... 62
   Appendix     3:      Prior Reviews of PRA Effectiveness ...................................... 64
   Appendix     4:      Glossary of Terms .............................................................. 67

                                                        i
                        Evaluation of Prompt Regulatory Action Implementation
Appendix 5:      Regulators’ Responses .........................................................71
Appendix 6:      Major Contributors to This Report .........................................77
Appendix 7:      Final Report Distribution.......................................................78


Abbreviations

Call Report          Report of Condition and Income
CAMELS               Capital, Asset quality, Management, Earnings, Liquidity, and
                     Sensitivity to market risk
DIF                  Deposit Insurance Fund
DIR                  Division of Insurance and Research
Dodd-Frank Act       Dodd-Frank Wall Street Reform and Consumer Protection Act
FDI Act              Federal Deposit Insurance Act
FDIC                 Federal Deposit Insurance Corporation
FDICIA               Federal Deposit Insurance Corporation Improvement Act
FRB                  Federal Reserve Board
GAO                  Government Accountability Office
MLR                  Material Loss Review
OCC                  Office of the Comptroller of the Currency
OIG                  Office of Inspector General
OTS                  Office of Thrift Supervision
PCA                  Prompt Corrective Action
PFR                  Primary Federal Regulator
PRA                  Prompt Regulatory Action
RTC                  Resolution Trust Corporation
TARP                 Troubled Asset Relief Program
Treasury             U.S. Department of the Treasury




                                              ii
                 Evaluation of Prompt Regulatory Action Implementation
                                                                               Evaluation
OIG                                                                              Report
Federal Deposit Insurance Corporation
Department of the Treasury
Federal Reserve Board


                      September 30, 2011

                      Ben S. Bernanke, Chairman
                      Board of Governors of the Federal Reserve System

                      Martin J. Gruenberg, Acting Chairman
                      Federal Deposit Insurance Corporation

                      John G. Walsh, Acting Comptroller of the Currency
                      Office of the Comptroller of the Currency

                      This report presents the results of our evaluation of section 38
                      (Prompt Corrective Action, or PCA) and section 39 (Standards for
                      Safety and Soundness) of the Federal Deposit Insurance Act (FDI
                      Act). Referred to in this report as the prompt regulatory action
                      (PRA) provisions, sections 38 and 39 were established by the
                      Federal Deposit Insurance Corporation Improvement Act (FDICIA)
                      of 1991.1 FDICIA was enacted to make fundamental changes in
                      federal oversight of insured depository institutions in response to
                      the financial crisis of the 1980s and early 1990s. The PRA
                      provisions mandated that regulators establish a two-part
                      regulatory framework for improving safeguards for the Deposit
                      Insurance Fund (DIF).2 Section 38 focuses on capital levels and
                      section 39 focuses on non-capital measures of an institution’s
                      safety and soundness.

                      Section 38(k) also requires that our offices conduct Material Loss
                      Reviews (MLR) of failed institutions that cause material losses to
                      the DIF. As part of our review of the supervision of the failed
                      institution, we examine the implementation of section 38. In
                      addition to MLRs, prior studies by the Government Accountability
                      Office (GAO) and our offices have assessed the implementation of

1
  Pub. L. No. 102-242.
2
  From 1989 through March 2006, there were two deposit insurance funds. The Federal Deposit
Insurance Reform Act of 2005 combined the two insurance funds into a single Deposit Insurance Fund.
For the purposes of this report we refer to the insurance funds as the DIF.

                                                   1
                      Evaluation of Prompt Regulatory Action Implementation
                      PRA at various points, but those assessments were mostly done
                      during periods when the financial condition of insured depository
                      institutions was strong and, accordingly, the federal banking
                      regulators’ use of PRA was somewhat limited.3 We initiated this
                      review to further evaluate the role and federal banking regulators’
                      use of the PRA provisions over the last several years in light of the
                      significant increase in the number of troubled financial institutions
                      and failures since mid-2007 (the current crisis), a period when
                      those provisions came into play more frequently.

                      EVALUATION OBJECTIVES AND APPROACH

                      The objectives of our evaluation were to:

                      1.    Determine the purpose of and circumstances that led to the
                            enactment of the PRA provisions and lessons learned from
                            the banking and thrift crisis in the 1980s and early 1990s.

                      2.    Evaluate to what extent PRA provisions were a factor in bank
                            failures and problem institutions during the current crisis.

                      3.    Assess whether PRA provisions prompted federal banking
                            regulators to act more quickly and more forcefully to limit
                            losses to the DIF in the current crisis in light of lessons
                            learned from the 1980s and early 1990s.

                      4.    Determine whether there are other non-capital measures that
                            provide a leading indication of risks to the DIF that should be
                            considered as part of PRA.

                      To address our objectives, we reviewed laws and regulations,
                      legislative history, lessons learned from the financial crisis of the
                      1980s and early 1990s, and prior reports and studies on PRA,
                      including MLR reports. We also selected and reviewed the
                      supervisory history for two statistical samples of insured
                      depository institutions to determine whether PRA-related
                      supervisory actions were taken as required and the underlying
                      cause necessitating such actions.

3
  The federal banking regulators discussed in this report are the Board of Governors of the Federal
Reserve System (FRB), the Federal Deposit Insurance Corporation (FDIC), the Office of the Comptroller
of the Currency (OCC), and the Office of Thrift Supervision (OTS). OCC and OTS are bureaus of the
Department of the Treasury (Treasury). On July 21, 2011, in accordance with the Dodd-Frank Wall
Street Reform and Consumer Protection Act (Dodd-Frank Act), the functions of OTS were transferred
to OCC, FDIC, and FRB.

                                                   2
                      Evaluation of Prompt Regulatory Action Implementation
                     The first sample–111 institutions–was selected from the universe
                     of institutions that had been undercapitalized for one or more
                     quarters during the period January 2006 to March 2010. In total,
                     there were 489 institutions in this universe. The second sample–
                     118 institutions–was selected from the universe of institutions
                     that had been designated as problem banks for one or more
                     quarters during the period January 2006 to March 2010 but were
                     never undercapitalized during this period. In total, there were
                     679 institutions in this universe. We also reviewed 120 MLRs for
                     banks that failed during this period.

                     Appendix 1 includes additional detail on our objectives, scope, and
                     methodology. We performed our evaluation between May 2010
                     and May 2011 in accordance with the Council of the Inspectors
                     General on Integrity and Efficiency’s Quality Standards for
                     Inspection and Evaluation.

                     We also coordinated our review with GAO. GAO was required
                     under the Dodd-Frank Act to study the federal banking regulators’
                     use of PCA.4

                     Our report is divided into three sections. Section I addresses the
                     first objective and provides the overall context for assessing
                     implementation of PRA provisions. Section II addresses the
                     second and third objectives by describing the extent to which PRA
                     provisions have been a factor in supervisory activity during the
                     current crisis and our assessment of the impact of PRA provisions
                     in limiting losses to the DIF. Section III addresses the fourth
                     objective by introducing non-capital factors that provide a leading
                     indication of bank problems and recommends matters for the
                     federal banking regulators’ consideration to strengthen the
                     effectiveness of the PRA provisions. Appendix 4 provides a
                     glossary of certain terms used in this report. Those terms, where
                     first used, are underlined.




4
 Bank Regulation: Modified Prompt Corrective Action Framework Would Improve Effectiveness,
GAO-11-612, June 2011.

                                                  3
                     Evaluation of Prompt Regulatory Action Implementation
Results in Brief
                        History of Provisions and Results of Prior Reviews. Congress
                        enacted sections 38 and 39 as part of a broader effort to address
                        problems experienced during the banking crisis of the 1980s and
                        early 1990s. Those problems included, among other things, a
                        concern that the exercise of regulatory discretion did not
                        adequately protect the safety and soundness of the banking
                        system or minimize losses to the DIF. The FDIC’s History of the
                        Eighties — Lessons for the Future5 outlined a number of lessons
                        about the performance of bank regulators during that period.
                        Treasury and GAO were also required to conduct studies of the
                        nation’s deposit insurance system. In our view, the following
                        lessons from those documents are relevant to understanding
                        issues and expectations surrounding the development and
                        implementation of PRA provisions:

                        •   Early identification of problems is critical and requires
                            continuous and sometimes burdensome monitoring of the
                            institutions’ activities.
                        •   Regulators had difficulty restricting risky behavior while
                            institutions were profitable.
                        •   Regulators must have adequate powers and a willingness to
                            use supervisory authority.
                        •   The regulatory process had better outcomes when regulators
                            took the most forceful action available.
                        •   Capital was a lagging indicator, yet the timing of enforcement
                            actions tended to focus on capital inadequacy rather than
                            underlying problems.

                        The addition of sections 38 and 39 to the FDI Act was intended to
                        improve the regulators’ ability to identify and promptly address
                        deficiencies at an institution to better safeguard the DIF. Section
                        38 principally establishes capital-based safeguards, and section 39
                        directs regulatory attention to noncapital areas of an institution’s
                        operations and activities.

                        Use and Impact of PRA During the Crisis. In terms of PRA-related
                        activity during the current crisis, we found that approximately
                        6 percent of all insured institutions (489 of 8,494) fell below the
                        minimum capital requirements established by section 38 (i.e.,
                        were undercapitalized) between January 2006 and March 2010.

5
    Volume 1 – An Examination of the Banking Crisis of the 1980s and Early 1990s.

                                                     4
                        Evaluation of Prompt Regulatory Action Implementation
We refer to these institutions as “PCA banks” in this report. PCA
banks accounted for approximately 39 percent of the problem
banks and 90 percent of all failures. With the exception of the
OCC, regulators rarely used their section 39 authority, which was
designed to address deficiencies related to an institution’s
operations and activities other than inadequate capital, opting
instead to address deficiencies using other regulatory tools and/or
authorities.

With respect to whether PRA provisions prompted regulators to
act more quickly and more forcefully to limit losses to the DIF, our
findings are generally consistent with prior reviews: PRA
provisions were appropriately implemented and helped strengthen
oversight to a degree. More specifically, we found:

•   Regulators implemented PCA appropriately. Based on our
    review of a sample of PCA banks, including banks that failed,
    we found that regulators generally implemented section 38
    provisions as required. The appropriate implementation of
    section 38 helped prevent seriously troubled institutions from
    engaging in high-risk strategies to restore capital and limited
    regulatory discretion and/or forbearance for undercapitalized
    institutions. These two factors had been a common concern in
    the pre-FDICIA era. However, the fact that 60 percent of PCA
    banks failed (291 of 489) supports the conclusion of prior
    studies that by the time seriously troubled banks become
    subject to mandatory provisions under section 38, there are
    few options available to resolve the problems of those
    institutions.

•   Inherent limitations associated with PCA’s capital-based
    framework and the sudden and severe economic decline
    impacted PCA’s effectiveness. As prior reviews have reported,
    section 38’s capital-based regulatory approach has inherent
    limitations. Capital is a lagging indicator and does not typically
    begin to decline until an institution has experienced substantial
    deterioration in other areas, such as asset quality and the
    quality of bank management, as reflected in examiners’ ratings.
    Further, reported capital levels do not always accurately reflect
    an institution’s financial condition, either due to rapidly
    declining asset values or an institution’s delay in recognizing
    asset write-downs. The suddenness and severity of the
    economic decline during this crisis also impacted PCA’s


                             5
Evaluation of Prompt Regulatory Action Implementation
    effectiveness in terms of resolving the problems of troubled
    institutions.

•   Regulators identified deficiencies prior to declines in PCA
    capital categories. Regulators generally identified deficiencies,
    including capital deficiencies, before the institutions became
    PCA banks. For example, during the period of our review, a
    large percentage of PCA banks were first designated as
    problem banks – defined as those banks with CAMELS ratings
    of “4” or “5” – and 61 percent of the problem banks had never
    been undercapitalized.

    We found that examiner concerns with asset quality and
    management were the leading indicators of whether a bank
    would become a problem bank, become undercapitalized, or
    fail, which is similar to the experience of the financial crisis of
    the 1980s and 1990s.

•   Regulators used other enforcement actions to address safety
    and soundness concerns before undercapitalization, but after
    financial decline occurred. Most of the PCA banks (86 percent)
    and problem banks (96 percent) in our samples had formal
    enforcement actions in place. In most cases, regulators
    imposed formal enforcement actions before troubled banks
    became undercapitalized. However, MLR reports often
    concluded that, although regulators identified the risks, in
    hindsight, earlier supervisory concern and intervention would
    have been prudent. The results of our MLRs indicate that,
    similar to the experience of the 1980s and early 1990s, the
    ability of regulators to curb excessive risk when the risky
    behavior was profitable (i.e., before financial condition
    deteriorated) remained a challenge.

•   Regulators made limited use of section 39 to address asset
    quality and management deficiencies identified. Accordingly,
    section 39 had little impact on problem or failed banks during
    this crisis. Section 39 was intended to provide regulators with
    a tool to effect corrective action in seemingly healthy banks
    with operational or risk management weaknesses. However,
    the regulators generally used other regulatory tools that, in
    their view, provided greater flexibility and were equally
    effective. OCC did use section 39 to require 21 institutions to
    submit compliance plans to address safety and soundness
    issues during our period of review.

                             6
Evaluation of Prompt Regulatory Action Implementation
•   Critically undercapitalized institutions were closed promptly,
    but overall losses were significant. Although PCA was
    intended to result in reduced loss rates, preliminary cost data
    suggests that losses were significant during the current crisis,
    and losses as a percentage of assets are higher in comparison
    to loss rates experienced in the 1980s and early 1990s. FDIC
    officials noted that making loss rate comparisons at this point
    may be premature because current loss figures are best
    estimates that may not reflect actual loss experience over the
    next 5-10 years. Bank losses significantly depleted the DIF,
    which remained in a negative position until the quarter ending
    June 30, 2011.

Leading Indicators and Matters for Consideration. Going forward,
the question is how to effectively address safety and soundness
concerns prior to financial deterioration to avoid, or at least lessen,
significant failures and losses emanating from a future crisis. The
Congress, the FDIC, and the other banking agencies have
responded to the financial crisis by planning and undertaking
numerous initiatives to strengthen regulatory oversight. These
efforts include the landmark Dodd-Frank Act and internal initiatives
by the banking agencies. Further, in June 2011, GAO issued a
study of PCA with recommended actions for the banking agencies.
GAO found that non-capital measures – earnings, liquidity, asset
quality, and asset concentration risk – were statistically valid and
significant predictors of bank failure during the current crisis
period.

We also identified non-capital factors that are leading indicators of
potential troubles that may strengthen the PRA framework if used
as triggers for mandatory regulatory intervention. These factors
are not new, and examiners at the regulatory agencies consider
them during safety and soundness examinations. These factors
include high-risk business strategies, such as aggressive growth,
asset concentrations, and dependence on volatile funding sources;
risk management weaknesses, such as poor underwriting and
credit administration practices; and asset quality or earnings
deterioration.

The PRA provisions were intended to supplement existing
regulatory enforcement tools. Accordingly, we evaluated
regulators’ use of these supplemental enforcement tools and other
supervisory actions to help assess PRA’s effectiveness and

                             7
Evaluation of Prompt Regulatory Action Implementation
identify areas for improvement. In that regard, we are
recommending that the banking agencies consider the following
options to strengthen, or indirectly support, the PRA provisions:
(1) develop specific criteria and corresponding enforcement
actions for non-capital factors, (2) increase the minimum PCA
capital levels, and (3) continue to refine the deposit insurance
system to assess greater premiums commensurate with
risk-taking. We recognize that in evaluating these matters there
may be differences with respect to large and small institutions.




                             8
Evaluation of Prompt Regulatory Action Implementation
                       SECTION I

      Prompt Regulatory Action:
History, Provisions, and Prior Reviews




                                    9
       Evaluation of Prompt Regulatory Action Implementation
PRA: History, Provisions, and Prior Reviews
                     The enactment of the PRA provisions was part of a broader
                     response to the banking and thrift crisis of the 1980s and early
                     1990s. According to the FDIC’s Managing the Crisis: The FDIC
                     and RTC Experience 1980-1994, August 1998,6 1,617 insured
                     banks and 1,295 savings and loan institutions were closed or
                     received financial assistance from 1980 through 1994. Those
                     failures resulted in resolution costs of $197.6 billion
                     ($317.8 billion in 2011 dollars). The number of failures and losses
                     associated with those failures was unprecedented and resulted in
                     federal banking regulators being criticized for not taking prompt
                     and forceful action to minimize or prevent losses to the DIF.

                     At that time, the regulatory system came under intense scrutiny,
                     and fundamental questions were raised about the effectiveness of
                     the bank regulatory and deposit insurance systems. These
                     questions became a catalyst for far-reaching legislative and
                     regulatory changes, among which was enactment of the PRA
                     provisions in FDICIA.7 Prior reviews of PRA generally concluded
                     that the provisions strengthened oversight to a degree but may
                     not have prompted regulators to take early enforcement action to
                     prevent or limit losses to the DIF.

                     History Leading to the PRA Provisions

                     Industry analysts have recognized many factors that contributed
                     to the high level of thrift and bank failures in the 1980s and early
                     1990s. One factor often cited was excessive forbearance by
                     regulators. Congress enacted FDICIA, in part, because of
                     concerns that the exercise of regulatory discretion during the

  6
    The FDIC conducted two studies of the banking and thrift crisis. The History of the Eighties —
  Lessons for the Future, published in December 1997, provided (1) a detailed analysis of the causes
  that led to the extraordinary number of bank failures in the 1980s and early 1990s; (2) an
  evaluation of the legislative, regulatory, and supervisory responses to those failures; and (3) an
  assessment of the future implications those experiences would have on deposit insurance and bank
  supervision. Managing the Crisis: The FDIC and RTC Experience 1980 – 1994, published in
  August 1998, examined the manner in which the FDIC and the Resolution Trust Corporation (RTC)
  handled the bank and thrift failures and documented the evolution of the methods used to resolve
  failed institutions, pay depositors their money, and dispose of the large volume of assets that
  remained.
  7
    FDICIA contained several provisions that were intended to collectively improve the supervision of
  federally insured depository institutions. For example, FDICIA included a number of corporate
  governance and accounting reforms and supervision reforms. The PRA provisions were among the
  supervision reforms.

                                                 10
                     Evaluation of Prompt Regulatory Action Implementation
1980s did not adequately protect the safety and soundness of the
banking system or minimize DIF losses.

Further, during the 1980s and early 1990s, the deposit insurance
guarantee was seen as an incentive for financial institutions,
especially troubled banks, to undertake riskier investments with
depositors’ insured funds. During that period, an undercapitalized
institution had a strong incentive to take risks because the
institution would benefit if the strategy proved successful but pass
any losses to the insurance funds. Therefore, adequate capital
was seen as critical in any reform to ensure bank directors and
management had sufficient incentives to fully consider the cost of
risk-taking.

Lessons from the Eighties

The FDIC’s History of the Eighties — Lessons for the Future
outlined a number of lessons about the performance of bank
regulators during that period. In our view, the following lessons
are relevant to understanding issues and expectations surrounding
the development and implementation of PRA provisions:

Problems in the operations of depository institutions must be
identified at an early stage if serious deterioration in the
institutions’ condition is to be prevented, and early identification
requires continuous and sometimes burdensome monitoring of the
institutions’ activities. According to the study, emerging problems
were not always identified on a timely basis during the first half of
the 1980s crisis, in part, because of an increased reliance on
off-site monitoring and a concurrent reduction in the number of
bank examiners and frequency of on-site examinations.

The ability of regulators to curb excessive risk-taking on the part
of currently healthy banks was limited by the problem of
identifying risky activities before they produced serious losses and
by competing public policy objectives. The FDIC’s study noted
that bank regulators were reasonably successful in curbing
risk-taking on the part of officially designated problem banks
whose condition had already deteriorated. However, in dealing
with ostensibly healthy banks, regulators had difficulty restricting
risky behavior before the problems arose, while the banks were
still solvent and the risky behavior was widely practiced and
profitable. Examiners stated that as long as a bank was
profitable, it was difficult to persuade bank management or

                            11
Evaluation of Prompt Regulatory Action Implementation
                  regulatory supervisors that problems could lie ahead. Once the
                  risky behavior resulted in losses, however, regulators were more
                  effective. Unfortunately, by that time, the damage had been
                  done, and efforts to resolve the problems of the institution had
                  limited success.

                  Bank regulation can limit the scope and cost of bank failures but is
                  unlikely to prevent failures that have systemic causes. The rise of
                  bank failures in the 1980s had many causes beyond the
                  regulators’ power to influence or offset, including broad economic
                  and financial market changes. Earlier implementation of uniform
                  capital standards or other improvements in regulation might have
                  reduced the number of failures in the 1980s but could not have
                  prevented a great many of them.

                  Reports on Deposit Insurance Reform and Use of Enforcement
                  Actions

                  In response to the banking and thrift crisis, Congress mandated8
                  that Treasury and GAO conduct studies of the nation’s deposit
                  insurance system and develop proposals for reforming the system.
                  Congress also requested that GAO review the effectiveness of
                  regulators’ enforcement activities to ensure that banks were
                  operating in a safe and sound manner.

                  Treasury’s February 1991 report to Congress, Modernizing the
                  Financial System, Recommendations for Safer, More Competitive
                  Banks (Treasury report), recommended reforms centered on
                  improving supervision by strengthening the role of capital.
                  Specifically, Treasury recommended establishing “zones” for
                  banks based on their particular levels of capital. Banks that did
                  not maintain high levels of capital would be subject to progressive
                  and well-defined sanctions. The Treasury report emphasized that
                  “prompt corrective action” would address the criticism that
                  regulators waited too long to act. The Treasury report based the
                  ability of regulators to take effective early corrective action on
                  three factors:

                  Regulators’ ability to identify undercapitalized banks before they
                  impose a loss on the DIF. The Treasury report concluded that
                  both reported financial data and examination ratings sometimes

8
 Required by the Financial Institutions Reform, Recovery, and Enforcement Act (FIRREA) of 1989
Pub. L. No. 101-73.

                                              12
                  Evaluation of Prompt Regulatory Action Implementation
                   give a misleadingly optimistic picture of a bank’s condition until
                   relatively shortly before it fails. Therefore, the degree to which
                   early corrective action can make a difference to deposit insurance
                   costs may be limited in cases where problems go undetected in
                   terms of reported capital levels, supervisory ratings, or both.

                   Regulators’ access to adequate powers to force correction or
                   prevent further deterioration. Regulators have a number of
                   options available to correct problems at banks once they have
                   been identified. The Treasury report noted that there was
                   disagreement concerning the adequacy of regulatory power and
                   did not make a recommendation for more power.

                   Regulators’ willingness to use supervisory authority. The Treasury
                   report noted that it was frequently alleged that regulators have the
                   tools to control bank risk but lack the incentive to use those tools.
                   The report concluded that it was difficult, if not impossible, to
                   determine whether regulators inappropriately delayed using their
                   authority.

                   GAO issued reports required by legislation9 and in response to
                   Congress’ request.10 GAO found that:

                   The regulatory process had better outcomes when regulators took
                   the most forceful action available to them. GAO’s study found
                   that regulators did not always use the most forceful enforcement
                   actions and shared a common philosophy of trying to work
                   cooperatively with banks to resolve safety and soundness
                   problems, known as moral suasion. The combination of wide
                   discretion and a cooperative philosophy often did not resolve the
                   problems that regulators had identified. Additionally, in a number
                   of cases, GAO found that the underlying causes for problems
                   were known but remained uncorrected and/or the bank had a
                   history of noncompliance with existing enforcement actions or of
                   repeatedly violating banking regulations.

                   Bank capital was typically a lagging indicator of bank problems;
                   nevertheless, regulatory enforcement actions tended to focus on
                   capital inadequacy, rather than on underlying problems, as a key

9
  Deposit Insurance: A Strategy for Reform (GAO/GGD-91-26), issued in March 1991.
10
   Bank Supervision: Prompt and Forceful Regulatory Actions Needed (GAO/GGD-91-69). GAO
studied regulators’ actions to enforce safety and soundness practices by analyzing 72 banks from
the universe of banks that as of January 1, 1988, were identified by regulators as having difficulty
meeting minimum capital standards established by regulation.

                                               13
                   Evaluation of Prompt Regulatory Action Implementation
indicator of unsafe and unsound practices. Further, capital
difficulties were typically caused by earlier problems involving
bank assets, earnings, and/or management. Such problems
included (1) asset growth that was not accompanied by
comparable increases in capital and (2) high exposures to risk
created by heavy concentrations in specific types of assets,
industries, or local economies. The most frequently cited reasons
for asset problems involved banks’ underwriting practices and lax
or non-compliant lending practices. GAO traced earnings and
asset problems to the quality of bank management and found that
regulators often cited management problems such as a lack of
management expertise, unwillingness or inability to address prior
enforcement actions, and dominant bank or board officials. GAO
found that examiners frequently identified and warned bank
management of these problems and that many of these problems
predated capital deficiencies by more than a year. GAO found
that clear-cut regulatory measures of unsafe and unsound
practices existed for capital but not for other aspects of bank
operations such as asset or earnings quality.

GAO concluded that meaningful reform of the deposit insurance
system would not succeed without an enforcement process that
was more predictable, more credible, and less discretionary than
the approach used at the time. GAO recommended that Congress
establish a regulatory “tripwire” system that would require prompt
and forceful action tied to specific unsafe banking practices. The
intent of the tripwire system would be to focus regulatory
attention on objective indicators of unsafe activities and conditions
and create a set of expectations among banks and regulators
concerning enforcement actions that would follow.

An important feature of GAO’s tripwire system was that the
earliest tripwires would enable regulators to take forceful action to
stop risky behavior before the capital of a bank began to fall
because when bank capital fell below the regulatory minimum, it
was often too late to do much about the condition of the bank or
the FDIC’s losses. Specifically, GAO proposed that the first
tripwire address unsafe activities that indicate management
inadequacies that could lead to further financial problems – i.e.,
unsafe practices in seemingly healthy institutions. This tripwire
was aimed at addressing the fact that regulators routinely
identified problems or risks but often did not act decisively on the
problems found because the consequences of those problems had
not yet had an adverse financial effect.

                            14
Evaluation of Prompt Regulatory Action Implementation
The federal banking regulators expressed concerns about (1) a
tripwire approach constraining decisionmaking; (2) the feasibility
of establishing quantifiable measures for all components of bank
operations that are examined, particularly for bank management;
and (3) the discretion that regulators need to consider the specific
facts and circumstances of each bank examined in determining the
most appropriate enforcement action to take. GAO responded
that the tripwire approach would reduce – not eliminate –
discretion. GAO also reaffirmed its belief that the regulators could
establish quantifiable measures for all bank components, including
management.

FDICIA and Sections 38 and 39 of the FDI Act

FDICIA was Congress’ first systematic attempt to reform federal
deposit insurance. With the passage of FDICIA, Congress sought
to better align incentives of insured depository institutions’
owners, managers, and regulators with the interests of the DIF.
Specifically, the addition of sections 38 and 39 to the FDI Act
was intended to improve the regulators’ ability to identify and
promptly address deficiencies at an institution to better safeguard
the DIF and supplement existing supervisory authority.

Section 38 – Prompt Corrective Action

The stated purpose of section 38 is to resolve the problems of
insured depository institutions at the least possible long-term loss
to the DIF. Section 38 required bank regulators to act promptly to
prevent troubled banks from becoming taxpayer liabilities and to
resolve the problems of troubled institutions while the institutions
had capital to absorb their own losses, protecting the deposit
insurance system and the taxpayers.

Specifically, section 38 created a capital-based framework for
bank and thrift oversight based on the placement of financial
institutions into one of five capital categories. Banking regulators
use three different capital measures to determine an institution’s
capital category: (1) a total risk-based capital ratio, (2) a Tier 1
risk-based capital ratio, and (3) a leverage capital ratio. Table 1
illustrates the capital level requirements for each capital category.




                            15
Evaluation of Prompt Regulatory Action Implementation
Table 1: PCA Defined Capital Categories

       PCA             Total Risk-Based     Tier 1 Risk-Based   Leverage Capital
 Capital Category       Capital Ratio         Capital Ratio          Ratio

Well Capitalized      10% or more and       6% or more and      5% or more
Adequately
Capitalized           8% or more and        4% or more and      4% or more

 Undercapitalized  Less than 8% or        Less than 4% or       Less than 4%
 Significantly
 Undercapitalized  Less than 6% or        Less than 3% or       Less than 3%
 Critically        An institution is critically undercapitalized if its tangible
 Undercapitalized  equity is 2% or less regardless of its other capital ratios.
Source: FDIC – 12 C.F.R. § 325.103 (2006), Federal Reserve – 12 C.F.R. §
208.43 (2006), OCC – 12 C.F.R. § 6.4 (2006), OTS – 12 C.F.R.§ 565.4 (2006).

Institutions face increasingly stringent restrictions at each
capitalization level below adequately capitalized. For example,
under section 38, an institution faces restrictions related to asset
growth and dividends, is required to develop a capital restoration
plan, and may ultimately be placed into receivership if capital
levels become critically low.

Section 39 – Standards for Safety and Soundness

Section 39 sought to limit deposit insurance losses by addressing
factors other than inadequate capital. Specifically, section 39
required regulators to develop and implement safety and
soundness standards in three areas:

1. Operations and Management – internal controls, information
   systems, internal audit, loan documentation, credit
   underwriting, and interest rate exposure.

2. Asset Quality, Earnings, and Stock Valuation – ratio of
   classified assets to capital, minimum earnings to absorb losses
   without impairing capital, and market value to book value of
   shares.

3. Compensation – compensation, fees, or benefits that are
   excessive or could lead to financial loss.

Initially, the standards for asset quality and earnings were to be
quantitative and require federal banking regulators to take formal
actions against institutions not meeting prescribed safety and

                            16
Evaluation of Prompt Regulatory Action Implementation
                        soundness standards. However, the Riegle Community
                        Development and Regulatory Improvement Act of 1994,11
                        amended section 39 and allowed the standards to be issued by
                        regulation (as originally specified by FDICIA) or by guideline and
                        eliminated the requirement to establish quantitative standards for
                        asset quality, earnings, and stock valuations. The federal banking
                        regulators chose to prescribe the standards through guidelines
                        rather than regulation, essentially providing them with flexibility in
                        how and when they would take action against institutions that
                        failed to meet the standards. The amendments were enacted in
                        response to concerns about the potential regulatory burden on
                        banks and thrifts associated with section 39.

                        In 1995, the federal banking regulators issued the Interagency
                        Guidelines Establishing Standards for Safety and Soundness,12
                        which set out broad standards under section 39 on sound banking
                        practices for internal controls; information systems; internal audit
                        systems; loan documentation; credit underwriting; interest rate
                        exposure; asset growth; and compensation, fees, and benefits.

                        Prior Reviews of PRA Effectiveness

                        Prior to the current financial crisis, our offices and GAO had
                        assessed the federal banking regulators’ implementation of PRA
                        provisions in four separate studies. In general, all the prior studies
                        noted that the regulators effectively used section 38 provisions
                        when an institution became undercapitalized and found there was
                        little use of the section 39 provisions to correct problems before
                        capital deterioration. However, some common themes emerged
                        with respect to section 38, including:

                        •   Capital-based safeguards are inherently limited because capital
                            does not typically show a decline until an institution has
                            experienced substantial deterioration in other components of its
                            operations and finances. Consequently, by the time seriously
                            troubled institutions become subject to section 38’s mandatory
                            restrictions and enforcement actions, there may be few options
                            available to prevent or minimize losses to the DIF.

                        •   Regulators responded to safety and soundness problems in
                            advance of a bank’s or thrift’s decline in required capital levels.

11
     Pub. L. No. 103-325.
12
     60 Fed. Reg. 35674 (Jul. 10, 1995).

                                                    17
                        Evaluation of Prompt Regulatory Action Implementation
•   The implementation of PCA depends on the accuracy of capital
    ratios reported in Reports of Condition and Income (Call
    Reports) and Thrift Financial Reports, which may not always be
    accurate.

Appendix 3 identifies each of the reports and summarizes key
findings.




                            18
Evaluation of Prompt Regulatory Action Implementation
                        SECTION II

      Prompt Regulatory Action:
Use and Impact During the Current Crisis




                                    19
        Evaluation of Prompt Regulatory Action Implementation
PRA Provisions: Use and Impact During the Current Crisis
             The crisis that began in 2007 was the first major financial crisis
             since FDICIA was enacted to test the effectiveness of PRA
             provisions in improving regulators’ ability to identify and promptly
             address deficiencies at an institution to better safeguard the DIF.
             In this section of the report, we discuss (1) the extent that PRA
             provisions were a factor in problem institutions between January
             2006 and March 2010 and bank failures through December 2010
             and (2) whether the PRA provisions prompted regulators to act
             more quickly and forcefully to limit losses relative to the pre-
             FDICIA era. In large measure, our findings are consistent with
             prior reviews – PRA provisions were appropriately implemented
             and helped strengthen oversight to a degree. More specifically,
             we found the following:

             •   Inherent limitations associated with PCA’s capital-based
                 framework and the sudden and severe economic decline
                 impacted PCA’s effectiveness in resolving the problems of
                 institutions during this crisis.

             •   Regulators identified deficiencies prior to declines in PCA
                 capital categories.

             •   Regulators took action to address safety and soundness
                 concerns before undercapitalization but after financial decline
                 occurred.

             •   Regulators made limited use of section 39 to address asset
                 quality and management deficiencies.

             •   Critically undercapitalized institutions were closed promptly,
                 but overall losses were significant.

             Regulators Implemented PCA Appropriately

             Based on our review of a sample of PCA banks, including banks
             that failed, we found that regulators generally implemented
             section 38 provisions as required, meaning that regulators
             routinely monitored capital levels, imposed increasingly restrictive
             mandatory provisions as capital levels decreased, and acted
             quickly to close critically undercapitalized institutions. We
             identified 489 PCA banks for our review period (i.e., banks that


                                         20
             Evaluation of Prompt Regulatory Action Implementation
                            failed to meet or fell below minimum capital requirements defined
                            in section 38 for at least one quarter between January 2006 and
                            March 2010). Table 2 illustrates how these PCA banks relate to
                            the universe of all insured institutions, well or adequately
                            capitalized problem banks, and banks that ultimately failed.

    Table 2: Well or Adequately Capitalized Problem Banks, PCA Banks, and Other
    Insured Institutions, January 2006 to March 2010
                                 Well or Adequately                        Non-Problem
                                     Capitalized                           and Non-PCA   Total Insured
                                  Problem Banksa         PCA Banksa           Banks       Institutions
    Number of Insured                   679                 489                7,326        8,494
    Institutions                    (Sample 118)        (Sample 111)
    As a Percentage of Total            8%                  6%                  86%         100%
    Insured Institutions
  Failed Institutions                  25                291                9b             325
  Through December 2010                                                               (Sample 120)
  As a Percentage of Failed           8%c               90%c              3%c             100%
  Institutions
  As a Percentage of                   4%               60%           Less than 1%         4%
  Insured Institutions
Source: OIG analysis of FDIC data.
a
  We identified a total of 1,122 problem banks during our review period, which was comprised of
679 well or adequately capitalized banks and 443 PCA banks. An additional 46 PCA banks were not
designated as problem banks.
b
  Eight of these banks were designated as problem banks for short periods of time between the quarterly
problem bank lists, but failed before appearing on a quarterly problem bank list.
c   Amounts do not total 100% due to rounding.

                            We found that regulators routinely used quarterly Call Reports and
                            Thrift Financial Reports and onsite examination activity to monitor
                            the condition of institutions, including capital levels. Accordingly,
                            when an institution failed to meet minimum capital levels (i.e.,
                            PCA banks), the institution became subject to mandatory PCA
                            provisions. The PCA provisions are intended to ensure swift
                            regulatory response to prevent further erosion of an institution’s
                            capital, and the regulatory response becomes more severe as an
                            institution’s capital declines. The Senate report on FDICIA stated
                            that “as an institution’s financial condition declines, regulators
                            must take meaningful measures to restore the institution to health,
                            culminating in appointing a conservator or receiver to the
                            institution if it ultimately proves impossible to turn it around
                            through less drastic measures.”13 Table 3 outlines mandatory and
                            discretionary PCA actions in more detail.


    13
         Senate Rep. No. 102-167, p. 32 (Oct. 1, 1991).

                                                        21
                            Evaluation of Prompt Regulatory Action Implementation
Table 3: Section 38 Mandatory and Discretionary Actions
   Capital Level                 Mandatory Provisions                            Discretionary Provisions
 Well Capitalized                        None                                             None
 Adequately          No new brokered deposits or rollovers
 Capitalized         except with FDIC waiver.a
 Undercapitalized    1. Suspend dividends and management             Regulators may take any action below:
                        fees.                                        1. Order recapitalization.
                     2. Require capital restoration plan.b           2. Restrict inter-affiliate transactions.
                     3. Restrict asset growth.                       3. Restrict deposit interest rates.
                     4. Require approval for acquisitions,           4. Restrict asset growth.
                        branching, and new activities.               5. Restrict activities that pose excessive
                     5. Monitor institution conditions and              risk.
                        compliance with section 38                   6. Improve management by ordering new
                        requirements.                                   board of directors election and/or
                     6. Prohibit brokered deposits.                     qualified senior executive officers.
                                                                     7. Prohibit deposits from correspondent
                                                                        banks.
                                                                     8. Require approval for capital distributions
                                                                        by bank holding companies.
                                                                     9. Require divestiture by the institution, by
                                                                        the parent company, or by any
                                                                        company having control of the
                                                                        institution.
                                                                     10. Take any other actions that would
                                                                        better carry out PCA.
 Significantly        1. Same as for Undercapitalized.               1. Conservatorship or receivership if
 Undercapitalized     2. Order recapitalization.c                       institution fails to submit or implement
                      3. Restrict inter-affiliate transactions.c        plan or recapitalize pursuant to order.
                      4. Restrict deposit interest rates.c           2. Any action under critically
                      5. Restrict pay of officers.                      undercapitalized provisions if such
                      6. Improve management (dismiss directors          action is necessary to carry out prompt
                         and senior managers).                          corrective action.
                      7. Regulators shall take one or more of the
                         discretionary actions noted above for
                         undercapitalization.
 Critically           1. Same as significantly undercapitalized.
 Undercapitalized 2. Appoint receiver/conservator within 90
                         days.c
                      3. Appoint receiver if still critically
                         undercapitalized for 4 quarters.
                      4. Suspend payments on subordinated
                         debt.c
                      5. Restrict certain other activities unless
                         written approval provided by the FDIC.
 a
   The restrictions on brokered deposits for institutions that are less than well capitalized are found in section
 29 of the FDI Act and codified at 12 U.S.C.§1831f.
 b
   Regulators shall take additional actions if institutions fail to submit or implement capital restoration plans.
 c
   Not required if the primary regulator determines action would not serve the purpose of prompt corrective
 action or if certain other conditions are met.
Source: Section 38 of the FDI Act and GAO Reports, 12 C.F.R. § 303.243.




                                                      22
                         Evaluation of Prompt Regulatory Action Implementation
                       The mandatory provisions become effective immediately by
                       operation of law, meaning that no action is required on the part of
                       regulators. Although not required to do so by regulation, we
                       found that regulators routinely sent notification letters advising
                       banks of the mandatory requirements and restrictions associated
                       with their section 38 capital category.14 Regulators must issue a
                       PCA-related supervisory directive15 when imposing discretionary
                       provisions. Alternatively, regulators may use other enforcement
                       authority, for example enforcement action authority under section
                       8 of the FDI Act, to address concerns related to capital instead of
                       or in conjunction with a supervisory directive.16

                       In addition to mandatory restrictions defined in section 38,
                       section 29 of the FDI Act imposes restrictions on an institution’s
                       funding sources based on capital levels defined in section 38.17
                       Specifically, under section 29, institutions that are not well
                       capitalized are prohibited from obtaining or rolling over brokered
                       deposits; however, adequately capitalized institutions may request
                       a waiver of the prohibition. Brokered deposits are a more volatile
                       source of funding than other types of core deposits, and limiting
                       the use of brokered deposits when an institution falls below
                       minimum capital requirements helps to prevent the bank from
                       using high-risk strategies to try to grow out of the its problems.

                       Further, section 38(g) allows regulators to take action based on
                       supervisory criteria other than capital. Specifically, regulators may
                       reclassify a well capitalized, adequately capitalized, or
                       undercapitalized institution to the next lower capital category and
                       impose those mandatory actions if the bank is in an unsafe or
                       unsound condition or engaged in an unsafe and unsound practice
                       that remains uncorrected.18 With the exception of the OCC, none
                       of the regulators used section 38(g) to reclassify an institution to
                       a lower capital category based on non-capital safety and
                       soundness concerns. The OCC used section 38(g) on two
                       occasions, in one instance using section 38(g) to dismiss bank


14
   FDIC Memorandum, Use of Notification and Reconfirmation Letters under Prompt Corrective Action,
September 30, 1996, and OCC’s An Examiner’s Guide to Problem Bank Identification, Rehabilitation,
and Resolution (Jan. 2001).
15
   A supervisory directive is a final order to a bank that fails to maintain capital at or above minimum
requirements. The directive is enforceable in the same manner and to the same extent as a final cease
and desist order.
16
   12 C.F.R. §325.101(d).
17
   12 U.S.C. 1831f.
18
   I57 Fed. Reg. 44897 (Sept. 29, 1992).

                                                   23
                       Evaluation of Prompt Regulatory Action Implementation
management. The process for taking a section 38(g) action can
be time-consuming because it requires notice and an opportunity
for a hearing before the institution can be reclassified to the next
lower capital category. According to the FDIC’s Formal and
Informal Action Procedures Manual, an order under section 8 of
the FDI Act is often the fastest means of obtaining correction of
an unsafe and unsound practice, particularly if an institution
stipulates to the issuance of the order.

We found that the federal banking regulators issued 91 PCA
directives between January 2006 and March 2010 as shown in
Table 4.

 Table 4: PCA Directives, January 2006 to March 2010

                        Regulator                       Number
  FRB                                                     16
  FDIC                                                    35
  OCC                                                      6
  OTS                                                     34
  Total                                                   91
 Source: FRB, FDIC, OCC, and OTS public Web sites.

Supervisory directives were issued to, among other things, follow
up on supervisory concerns related to capital restoration plans,
force an institution to recapitalize or merge, and dismiss bank
officers. As discussed later in this report, regulators made limited
use of section 38 supervisory directives because problems were
identified before declines in capital, and, in most cases,
supervisory action had already been taken or initiated.

The regulators resolved all of the institutions that became critically
undercapitalized between January 2006 and March 2010 within
the 90-day statutory time frame or within an allowable extension.
Specifically, regulators closed 105 of 117 critically
undercapitalized institutions within 90 days as required. The
regulators closed the remaining 12 institutions within 91 to
129 days of the institution becoming critically undercapitalized.
The 90-day period may be extended, provided the regulator and
the FDIC concur and document why an extension would better
serve the purposes of the provision, but after 270 days, a receiver
or conservator must be appointed unless the regulator and the
FDIC certify that the institution is viable and not expected to fail.

                            24
Evaluation of Prompt Regulatory Action Implementation
Regulators told us that the requirement to close critically
undercapitalized institutions promptly was beneficial because it
established a “bright line” that was easily understood by the state
regulators and bank officials. In this regard, the closure of
critically undercapitalized institutions addressed one pre-FDICIA
concern – regulatory forbearance. In the 1980s and early 1990s,
regulators worked with bank management of troubled institutions
over an extended period of time to try to allow banks to grow out
of their problems.

Overall, the implementation of section 38 was successful in
limiting PCA banks’ access to high-risk funding, restricting asset
growth, prohibiting dividends, and promptly closing critically
undercapitalized institutions. However, as discussed next, the
implementation of section 38 did little to resolve the problems of
PCA banks during this crisis.

Inherent Limitations with PCA’s Capital-Based Framework and the
Sudden and Severe Economic Decline Impacted PCA’s
Effectiveness

Earlier GAO and OIG reviews reported that although capital is an
objective measure, it is an inherently lagging indicator of an
institution’s operational and financial health and is dependent on
accurate financial reporting. In one of its earlier reviews on PCA,
GAO observed that once capital declines, it simply may be too late
to prevent failure. Experience during this crisis is consistent with
that observation – although PCA was appropriately implemented,
nearly 60 percent of PCA banks failed and PCA banks accounted
for 90 percent (291 of 325) of banks that failed. Further, the
sudden and steep decline in economic conditions during this crisis
impacted PCA’s effectiveness in terms of resolving the problems
of troubled institutions. Figure 1 illustrates the status of the
489 PCA banks as of December 31, 2010.




                            25
Evaluation of Prompt Regulatory Action Implementation
                        Figure 1: Status of 489 PCA Banks as of December 31, 2010



                                                                            Non-Problem
                                                                              Banks,
                                 Failed Banks,
                                                                              82, 17%
                                   291, 60%




                                                                                Problem Banks,
                                                                                   116, 24%




                        Source: OIG analysis of data for PCA banks as of December 2010.

                        Lagging Nature of Capital. Congress chose to use capital as a
                        trigger for section 38 regulatory action because it was “a strong,
                        objective measure of an institution in trouble.”19 Congress noted
                        that “the better capitalized an institution is, the longer the period
                        of time regulators will have to assess problems and resolve
                        them.”20 However, during this crisis, once an institution’s capital
                        fell below minimum levels, the decline was precipitous, allowing
                        little time for corrective actions to take effect. Specifically,
                        institutions that fell below minimum regulatory capital
                        requirements did not cascade through various capital levels. We
                        reviewed data for 108 MLRs involving PCA banks and found that
                        only 20 percent (22 of 108) triggered all three undercapitalized
                        levels. Thirty-eight percent (41 of 108) triggered two
                        undercapitalized levels, and 42 percent (45 of 108) only triggered
                        one level of undercapitalization. Of those institutions that only
                        triggered one PCA level, 20 institutions fell from well or
                        adequately capitalized directly to critically undercapitalized.

                        A 1996 article written by economists at the Federal Reserve Bank
                        of Boston, entitled The Use of Capital Ratios to Trigger
                        Intervention in Problem Banks: Too Little, Too Late, considered
                        whether the capital thresholds that trigger PCA intervention
                        provide sufficient lead time for successful intervention at troubled

19
     Senate Rep. No. 102-167, p. 32 (Oct. 1, 1991).
20
     Id.

                                                    26
                        Evaluation of Prompt Regulatory Action Implementation
institutions. The study found that because PCA is based on a
lagging indicator, it is likely to trigger intervention in problem
banks only after problems have been identified by examiners.

Dependence on Accurate Reporting. The article also stated that
reductions in reported leverage ratios associated with the
deterioration in a bank’s health are often delayed until the bank
undergoes a supervisory examination. Banks tend to be slow to
provision for possible loan losses (which, other things being equal,
reduces their capital), often adding to loan loss reserves only after
the problems have been identified, rather than in anticipation of
problems. In fact, reported leverage ratios for troubled banks that
have not been subjected to a supervisory examination often
overstate the institution’s financial health. Consequently, many
banks experience a large reduction in their reported capital ratios
as a consequence of requirements to charge off loans and
replenish loan loss reserves that are imposed as a result of an
examination.

As discussed in Section I of this report, a regulator’s ability to take
effective early corrective action and the degree to which early
corrective action can make a difference depend on accurate and
timely financial information. Often banks use overly optimistic
loss projections and/or have difficulties properly valuing assets
during a period of rapidly declining economic conditions. Based on
our analysis, we found that Call Reports were slow to reflect
rapidly declining asset values and therefore the true level of capital
available to absorb losses, especially when overly optimistic bank
projections did not materialize. Consequently, a significant
number of Call Reports were amended, and the amendments
generally resulted in decreased reported capital levels.

Between 2008 and November 2010, 43 percent of 4-rated and
50 percent of 5-rated FDIC-supervised institutions required
material amendments to their Call Reports. With respect to FDIC
PCA banks, 22 percent (69 of 314) had amended Call Reports.
While some amendments were self-initiated, more often, they
were based on examination findings that required increases to the
allowance for loan and lease losses reserve to reflect asset quality
problems, which in turn reduced capital.

Sensitivity to Economic Decline. Another factor impacting PCA’s
effectiveness, in terms of resolving the problems of institutions,
was the steepness and suddenness in which the financial crisis

                            27
Evaluation of Prompt Regulatory Action Implementation
                    unfolded. The financial crisis began developing in the second half
                    of 2007 and was followed by an accelerated sharp deterioration in
                    2008. Treasury’s 1991 study stated that an economic shock
                    could impair the effectiveness of PCA. Specifically, the 1991
                    Treasury report noted that bank assets are inherently difficult to
                    value, and even when market prices for those assets exist,
                    economic shocks may cause a rapid change in those values,
                    thereby limiting the FDIC’s ability to resolve an institution early
                    enough to avoid a cost to the DIF.

                    Figure 2 illustrates how most PCA banks that failed became
                    undercapitalized suddenly and severely and failed a median of
                    2 quarters after becoming undercapitalized. Regulators described
                    this as the “cliff effect” of capital decline, which, as discussed in
                    more detail below, was driven in part by the sudden and sharp
                    economic decline.

Figure 2: Number of Quarters Undercapitalized Before Failure
                                        70

                                        60
       N u m b er o f In stitu tion s




                                        50


                                        40

                                        30


                                        20


                                        10


                                         0
                                             1   2   3              4               5               6   7   8
                                                         Quarters Undercapitalized Before Failure


Source: OIG analysis of capital levels for 185 bank failures between January 1, 2006
and March 31, 2010.

                    The economic decline during the 1980s was gradual and long, and
                    likely helped shape the expectation embedded in section 38 that
                    an institution would cascade through the various capital levels,
                    allowing time for corrective action to take effect. The more recent
                    financial crisis was different, and circumstances made it difficult
                    for both institutions and regulators to determine rapidly declining
                    asset values, especially for securities with no readily obtainable
                    market value. Officials we interviewed in each of the regulatory
                    agencies all agreed that PCA was not effective in terms of
                    resolving the problems of troubled institutions during such a period
                    of sharp nationwide economic decline. In their view, PCA is a
                    better tool for individual banks during benign economic times.

                                                           28
                    Evaluation of Prompt Regulatory Action Implementation
                       For example, the Comptroller of the Currency remarked in July
                       2010 that PCA proved valuable during benign economic times,
                       when banks with problems that took longer to play out really
                       could be addressed earlier than they had been previously, avoiding
                       costly failures. Indeed, the Comptroller viewed PCA as a
                       contributing factor to the fact that there were no bank failures
                       between June 2004 and February 2007. However, the
                       Comptroller noted that PCA’s record since then has proven to be
                       less positive. During this period, he stated that declining capital
                       levels of banks – on which PCA is fundamentally premised –
                       lagged far behind the relatively sudden and large problems caused
                       by troubled construction and development loans that precipitated
                       failure. Further, of the 45 national banks that had failed between
                       January 2008 and July 2010, nearly all had amounts of capital
                       that significantly exceeded the PCA-required well capitalized level
                       just 1 year before failure because loan charge-offs had not
                       “spiked.” By the time the magnitude of the losses was
                       recognized, regulatory intervention authorized under PCA was too
                       late to avoid failures and losses to the DIF.21

                       Regulators Identified Deficiencies Prior to Undercapitalization

                       Regulators generally identified troubled institutions as problem
                       banks (banks assigned CAMELS composite ratings of “4” or “5”)
                       and downgraded the capital component rating before the banks
                       became undercapitalized and mandatory PCA provisions came into
                       play. We found that over the 4-year period we analyzed, only
                       11.5 percent (median) of problem banks were undercapitalized or
                       lower for PCA purposes. Moreover, only 24 percent (median) of
                       problem banks with a “4” (deficient) or “5” (critically deficient)
                       capital component rating were undercapitalized or lower for PCA
                       purposes.22 Figure 3 presents, by quarter, the number of problem
                       banks, banks with a capital component rating of “4” or “5,” and
                       PCA banks.




21
  Remarks made by Comptroller of the Currency July 21, 2010.
22
  This calculation represents the median of the percentage of Capital component 4- and 5-rated
problem banks that were also undercapitalized, by quarter. The percentages ranged from a low of
4.5 percent for the quarter ended September 30, 2006 (i.e., 4.5 percent of the Capital component 4-
or 5-rated banks were also undercapitalized during the quarter) to 45.1 percent for the quarter ended
September 30, 2009.

                                                   29
                       Evaluation of Prompt Regulatory Action Implementation
              Figure 3: Comparison of the Number of Problem Banks, Banks with
              Deficient Capital Component Ratings, and PCA Banks



                                 900
                                 800
                                 700
                  Institutions




                                 600
                                 500
                                 400
                                 300
                                 200
                                 100
                                   0
                                       6     6      06      06 r-07 -07      07       07 r-08 -08       08      08 r-09 -09     09       09 r-10
                                     -0 n-0       p-      c-              p-       c-                p-       c-              p-      c-
                                   ar      u     e      e       a    un  e       e        a    un   e       e       a    un  e      e        a
                                 M       J     S       D      M    J    S       D       M    J    S        D      M    J    S      D       M
                                                             Problem Banks           Capital 4-, 5-Rated        PCA Banks

              Source: OIG analysis of FDIC data.
              Note: At the FDIC’s request, PCA data is lagged by one quarter to account for Call Report
              amendments made by banks and/or examiners.

                                 According to the Senate report on FDICIA, the PCA system was
                                 envisioned to require regulators to act at the “first sign of
                                 trouble.”23 PCA was designed not only to limit regulatory
                                 forbearance by requiring the timely closure of failing banks but
                                 also by requiring earlier intervention in problem banks. In its 2007
                                 report, GAO stated that regulatory action focused solely on capital
                                 may have limited effects because of the extent of deterioration
                                 that may have already occurred in other areas. Further, according
                                 to that report, regulators generally agreed that PCA, by design, is
                                 not a tool that can be used upon early recognition of an
                                 institution’s troubled status.

                                 Identification of Problem Banks. In most cases, PCA is not
                                 triggered at the “first sign of trouble.” Rather, PCA supplements
                                 existing supervisory guidance, and regulators stated that PCA
                                 serves as a “backstop” or a safeguard to be used if other
                                 enforcement actions are bypassed or delayed. During the period
                                 of our review, 61 percent (679 of 1,122) of the problem banks

23
     Senate Rep. No. 102-167 p. 32 (Oct. 1, 1991).

                                                                     30
                                 Evaluation of Prompt Regulatory Action Implementation
                       were never undercapitalized. With respect to the PCA banks,
                       approximately 49 percent of PCA banks were designated as
                       problem banks before the institution’s capital level fell below
                       required minimums, and another 17 percent became
                       undercapitalized and were included on the problem bank list during
                       the same quarter.

                       We also analyzed the timing of ratings downgrades and PCA levels
                       for 120 failed banks for which MLRs were completed. We found
                       that examiners downgraded banks to a “4” or a “5” composite
                       rating a median of 275 days prior to failure. Conversely, banks
                       became undercapitalized a median of 107 days prior to failure.

                       Further, we reviewed problem bank memoranda for our sample of
                       118 well and adequately capitalized problem banks and 111 PCA
                       banks to better understand what prompted supervisory concern
                       for these institutions. As discussed, our sample included
                       institutions that ultimately failed. As shown in Table 5, we found
                       that asset quality and management issues were the leading
                       indicators of whether a bank would become a problem bank,
                       become undercapitalized, or fail. Asset quality and management
                       issues were also often found to be the leading indication of
                       problem banks and capital depletion in the 1980s.

   Table 5: Areas of Concern Identified in Problem Bank Memoranda
                                  Results of Analysis for           Results of Analysis for
     Area of Concern              Sample of PCA Banks              Sample of Problem Banks
  Identified by Examiners                      Percentage of                     Percentage of
                                Number             Sample         Number             Sample
 Capital                          44                40%              57               48%
 Asset Quality                   109                98%             106               90%
 Management                       97                87%             111               94%
 Earnings                         43                39%              86               73%
 Liquidity                        50                45%              51               43%
 Sensitivity to Market Risk        5                 5%              1                 1%
Source: OIG review of problem bank memoranda for our sample of 111 PCA and 118 problem banks.

                       We also reviewed other available information for these banks,
                       including examination reports and MLR reports (if applicable), to
                       help us more specifically identify the common problem areas
                       within asset quality and management. We found asset quality
                       concerns frequently involved loan concentrations coupled with
                       high levels of adversely classified assets and inadequate risk
                       management practices (i.e., poor underwriting and credit
                       administration). The most common issues associated with


                                                   31
                       Evaluation of Prompt Regulatory Action Implementation
management were inadequate board and management supervision
and weak internal controls.

In addition to our analysis of sampled items, we reviewed other
articles/publications to further validate the underlying causes
attributed to the universe of problem, PCA, and failed banks. For
example, an article in the FDIC’s Supervisory Insights Journal,
entitled, A Year in Bank Supervision: 2008 and a Few of its
Lessons, stated that the majority of community banks that
became problem banks or failed in 2008 had similar risk profiles.
These banks often had extremely high concentrations, relative to
their capital, in residential acquisition, development, and
construction lending. Loan underwriting and credit administration
functions at these institutions typically were criticized by
examiners. Frequently, these institutions had exhibited rapid asset
growth funded with brokered deposits. With respect to larger
banks, substantial losses to the DIF in 2008 came from portfolios
of low- and no-documentation subprime and Alt-A mortgage loans
(a type of mortgage between prime and subprime) and securities
backed by such loans.

The 1996 article discussed earlier in this report, entitled The Use
of Capital Ratios to Trigger Intervention in Problem Banks: Too
Little, Too Late, also found that examiners often were aware of
problems well before a bank became undercapitalized as defined
by the PCA provisions. The study also found that in many cases,
banks failed shortly after falling below the PCA undercapitalized
thresholds before any serious attempt could be made to alter bank
behavior. The study concluded that PCA triggers that more
closely mimic the timing of problem bank identification by
examiners would result in more timely intervention in problem
institutions.

Identification of Capital Deficiencies. Examiners often rated a
problem bank’s capital level as deficient or critically deficient,
based on the bank’s risk profile, before the bank became
undercapitalized for PCA purposes. Capital problems are most
frequently caused by losses from bad loans or bank operations.
An institution is expected to maintain capital commensurate with
the nature and extent of risks to the institution and the ability of
management to identify, measure, monitor, and control these
risks. The types and quantity of risk inherent in an institution’s
activities determine the extent to which it may be necessary to
maintain capital at levels above required regulatory minimums to

                            32
Evaluation of Prompt Regulatory Action Implementation
properly reflect the potentially adverse consequences that these
risks may have on the institution’s capital.

The capital adequacy of an institution is rated based on an
assessment of a number of factors, including (1) the level and
quality of capital; (2) management’s ability to address capital
needs and access capital markets and other sources of capital,
including the support provided by a parent holding company;
(3) the nature, trend, and volume of problem assets, and the
adequacy of allowances for loan and lease losses and other
valuation reserves; (4) the balance sheet composition, including
the nature of intangible assets, market risk, concentration risk,
and risks associated with nontraditional activities; (5) the quality
and strength of earnings and the reasonableness of dividends; (6)
the prospects and plans for growth as well as past experience
managing growth; and (7) the risk represented by off-balance
sheet activities.

Based on our sample of 118 problem banks, we found that
56 percent (66 of 118) had a “4” or “5” capital component rating,
signifying a deficient or critically deficient level of capital that
could threaten the bank’s viability, but these institutions were not
PCA banks (i.e., undercapitalized). Although these results indicate
that examiners proactively identified issues before their capital
levels fell below regulatory minimums – the results are contrary to
the expectation that PCA would require regulators to act at the
“first sign of trouble.”

Regulators Used Other Enforcement Actions to Respond to Safety
and Soundness Concerns Before Undercapitalization, but After
Financial Decline Occurred

Most of the PCA banks (86 percent) and problem banks
(96 percent) in our samples had formal enforcement actions in
place. Based on our review of failed banks, regulators imposed
formal enforcement actions before banks became undercapitalized.
However, MLR reports often concluded that, although regulators
identified the risks at failed institutions, in hindsight, earlier
supervisory concern and intervention would have been prudent.
The results of our MLRs indicate that CAMELS ratings for the
failed financial institutions placed greater emphasis on a bank’s
financial condition at the time of the examination and on the
bank’s levels of capital and earnings, rather than the bank’s ability
to successfully mitigate identified risks. Similar to the lessons

                            33
Evaluation of Prompt Regulatory Action Implementation
learned from the 1980s and early 1990s, these results suggest
that the ability of regulators to curb excessive risk-taking when
the risky behavior was profitable (i.e., before financial condition
deteriorated), continues to be a challenge despite implementation
of PRA provisions designed to address this issue.

As mentioned earlier in this section of the report, regulators
typically rely on onsite examinations and offsite monitoring to
monitor the practices and conditions of banks. When unsafe and
unsound banking practices or conditions are identified, regulators
have the authority to use a variety of enforcement actions
prescribed by law and banking regulations to compel the banks to
address the identified problems. These actions range from
informal meetings to formal actions that are enforceable in courts.
Informal actions are voluntary commitments made by a bank’s
Board of Directors that document management agreement to
corrections through commitment letters or memorandums of
understanding. Informal actions are not legally enforceable and
are not available to the public. Stronger, formal actions available
include formal written agreements; orders to cease and desist
unsafe practices; orders for removal, prohibition, and suspension
of individuals from bank operations; and civil monetary penalties.
Formal actions are legally enforceable, and final formal orders are
available to the public after issuance.

Formal and informal actions address practices, conditions, or
violations of law that, if continued, could result in risk of loss or
other damage to an insured financial institution. To mitigate loss
or other damage to an institution, regulators try to secure
correction of objectionable practices as soon as possible. When
unacceptable practices are detected early, moral suasion and
informal action against an institution are generally considered
sufficient. However, in more serious situations, formal action
could be considered even for institutions that receive composite
ratings of “1” or “2” for safety and soundness or compliance
examinations to address specific actions or inactions by an
institution.

With respect to our sample of 111 PCA banks, 7 percent had
informal actions in place, 86 percent had formal enforcement
actions in place, and 1 percent failed without any action in place.
In five instances, regulators did not pursue an enforcement action
because the institutions were either merged or were
undercapitalized for only one quarter. The problem bank sample

                            34
Evaluation of Prompt Regulatory Action Implementation
                       of 118 institutions showed similar results. A total of 96 percent
                       of the problem banks had formal actions, and 4 percent had
                       informal actions. Table 6 summarizes the results of our analysis.

Table 6: Analysis of Enforcement Action Activity for OIG Sampled Banks
                                                                  OIG Sample
                                                       PCA Banks            Problem Banks
        Nature of Enforcement Action                Number  Percentage   Number    Percentage
 Informal Action                                         8            7%          5           4%
 Informal Action and Subsequent Formal                  49           44%         40          34%
 Action
 Formal Action                                          47           42%         73          62%
 Action Initiated/Proposed but Not                      2            2%          0           0%
 Complete
 No Action                                               5            5%         0            0%
 Totals                                                 111                     118
Source: OIG analysis of enforcement actions taken or initiated for OIG sample of PCA and problem
        banks.

                       In order to determine when informal and formal actions were
                       implemented, we developed a timeline to illustrate the steps
                       regulators generally took to identify and address safety and
                       soundness concerns. Our timeline illustrated in Figure 4 is based
                       on our review of 120 MLR reports for banks that failed between
                       January 2006 and March 2010, as those reports provided a
                       complete analysis of supervisory actions from the time an
                       underlying problem was first identified until failure.




                                                   35
                       Evaluation of Prompt Regulatory Action Implementation
                     Figure 4: Timeline of Events for MLR Failures




                     Source: OIG analysis of supervisory data for MLRs completed between January
                     2006 and March 2010.
                     *Initial indication of problems by examiners was generally the date of the
                     examination in which examiners identified problems in the bank that ultimately
                     contributed to the bank’s failure.

                     Regulators identified underlying risks well in advance of failure;
                     however, as discussed in a recent FDIC OIG report summarizing its
                     MLRs, CAMELS ratings for the failed financial institutions placed
                     greater emphasis on a bank’s financial condition at the time of the
                     examination and levels of capital and earnings, rather than the
                     bank’s ability to successfully mitigate identified risks. As a result,
                     regulators often did not pursue formal enforcement action until an
                     institution’s financial condition was impacted.24 Although the
                     CAMELS rating system contains explicit language in each of the
                     components emphasizing management’s ability to identify,
                     measure, monitor, and control risks, examiners did not always
                     place sufficient emphasis on risk mitigation when assigning
                     ratings. Further, management’s lack of responsiveness to
                     examiners’ concerns was not always reflected in assigned
                     CAMELS ratings until significant financial deterioration had
                     occurred. Examiners frequently explained that it was their
                     perception that the apparent financial strength of an institution,
                     expressed in earnings and capital, limited their options for
                     addressing elevated risk profiles. As discussed in individual MLRs

24
   Follow-up Audit of FDIC Supervision Program Enhancements, (FDIC OIG Report No. MLR-11-010)
issued in December 2010.

                                                 36
                     Evaluation of Prompt Regulatory Action Implementation
and summary reports on MLR findings, regulators have begun to
incorporate lessons learned from this financial crisis into their
regulatory processes, including findings from MLRs. However, it
is too soon to tell whether the processes will be effective and
sustainable in the long term.

The notion of having evidence of financial deterioration before
pursuing an enforcement action is the same issue regulators
struggled with during the 1980s and early 1990s. As noted by
the FDIC in the History of the Eighties — Lessons for the Future,
bank regulators had difficulty restricting the behavior of ostensibly
healthy banks while the banks were still solvent and the risky
behavior was widely practiced and currently profitable. The study
concluded that it was hard to distinguish such behavior from
acceptable risk/return trade-offs, innovation, and other appropriate
activity, or to modify the behavior of banks while they were still
apparently healthy. Examiners stated that as long as a bank was
profitable, it was difficult to persuade bank management or
regulatory supervisors that problems could lie ahead.

Regulators Made Limited Use of Section 39 to Address
Deficiencies Identified

Similar to findings in earlier reviews of PRA provisions, with the
exception of the OCC, regulators rarely used section 39 during our
sample period, opting instead to take informal as well as formal
enforcement actions using their authority under section 8 of the
FDI Act. As discussed in Section I of this report, changes to
section 39 in 1994 gave regulators considerable flexibility over
how and when to use their authority under this section to address
safety and soundness deficiencies. Section 39 was intended to
allow regulators to take action against seemingly healthy banks
that were engaging in risky practices before losses occurred.
Existing regulatory guidance states that section 39 actions can be
initiated for non-problem institutions in which inadequate practices
and policies could result in a material loss to the institution or in
cases where management has not responded effectively to prior
criticisms.

According to FDIC enforcement action guidance, the Interagency
Guidelines Establishing Standards for Safety and Soundness are
designed to prompt institutions to take steps that will help identify
emerging problems and correct deficiencies before the safety and
soundness of the institution becomes impaired. Additionally, the

                            37
Evaluation of Prompt Regulatory Action Implementation
                         guidance states that an institution should not be viewed as having
                         failed one of the standards due to an isolated error or
                         inconsistency; instead, the FDIC should assess the institution’s
                         overall practices and performance in each area when determining
                         whether the institution satisfies the standards.

                         According to regulatory guidance related to enforcement actions,
                         under section 39, the regulatory agency may request an institution
                         to submit a compliance plan describing the steps the institution
                         will take to correct the identified deficiencies.25 This is considered
                         to be an informal action. Institutions that fail to submit an
                         acceptable plan, or materially fail to adhere to the submitted plan,
                         become subject to an order requiring correction of the deficiencies
                         noted, which is considered a formal action. Proceeding under
                         section 39 has several advantages: (1) a compliance plan can be
                         obtained within 30 days, (2) the order is enforceable in federal
                         court without a hearing, and (3) consent is not required.
                         However, once a section 39 order is initiated, regulators told us
                         that they lack the discretion to avoid issuing a formal order if an
                         acceptable compliance plan is not submitted or not materially
                         implemented. Further, a stipulated formal order under section 8(b)
                         potentially can be implemented and enforcement actions can be
                         available faster than issuing a section 39 order because of the
                         requirements related to providing notice and allowing time for the
                         institution to respond. GAO has reported in its earlier reviews that
                         section 39, as amended, does not appear to significantly change
                         the wide discretion that regulators have regarding the timing and
                         severity of enforcement actions taken against troubled institutions.

                         OCC required 21 institutions to submit compliance plans under
                         section 39 to address safety and soundness concerns from
                         January 2006 through March 2010.26 In most cases, OCC
                         required compliance plans to address asset quality, credit risk
                         management, credit underwriting, loan documentation, and
                         internal control issues. OCC requested compliance plans from five
                         institutions to address CRE concentrations or asset growth and
                         from three institutions to address Bank Secrecy Act concerns.
                         OCC imposed subsequent formal enforcement actions on 4
                         institutions, and 5 of the 21 institutions later merged or failed.
                         Most of the institutions were “3-rated” at the time of section 39



25
     FDIC Formal and Informal Action Procedures Manual p. 11-5.
26
     OCC required compliance plans from an additional seven institutions through March 2011.

                                                     38
                         Evaluation of Prompt Regulatory Action Implementation
                        action, and most are currently “3-rated” as of their most recent
                        examination.

                        The FDIC initiated section 39 actions on two occasions between
                        2006 and 2010. In January 2006, the FDIC requested that one
                        institution submit a section 39 compliance plan to address
                        inadequate loan documentation, concentrations of credit, and poor
                        performance of collateral. In March 2006, the compliance plan
                        request was replaced with a formal cease and desist order
                        covering additional concerns. The institution was released from
                        that order in November 2007. In 2009 and 2010, the FDIC issued
                        section 39 actions to 15 banks controlled by a single troubled
                        holding company. The actions required each individual bank to
                        submit a detailed plan to sell, merge, or sufficiently capitalize the
                        bank.

                        Regulators stated that they preferred using other informal actions
                        like Bank Board Resolutions or Memoranda of Understanding
                        and/or section 8 authority to take a formal enforcement action.
                        Regulators explained that, in their view, these actions serve the
                        same purpose as an action under section 39 and could be
                        implemented more timely. In addition, some regulators
                        commented that because the safety and soundness standards
                        issued under section 39 constitute guidance and not a regulation,
                        they can potentially be more difficult to enforce. The agencies
                        adopted the standards as guidelines to grant each institution the
                        flexibility of developing appropriate procedures based on the scope
                        and nature of its activities. One official acknowledged that
                        section 39 could be used more to address concerns given it
                        establishes very broad safety and soundness standards, but the
                        process for doing so would be subjective.

                        Critically Undercapitalized Institutions Were Closed Promptly, but
                        Overall Losses Were Significant

                        The Senate report accompanying FDICIA predicted that the “[PCA]
                        system will help shift the costs of failures toward the shareholders
                        of troubled institutions, away from the deposit insurance system
                        and the taxpayers.”27 An FDIC publication on PCA noted that
                        “[m]any economists expected these [the PCA] provisions to result
                        in dramatically reduced loss rates, or even zero loss rates for bank


27
     Senate Rep. No. 102-167, p.32 (October 1, 1991).

                                                    39
                        Evaluation of Prompt Regulatory Action Implementation
                       failures.”28 Preliminary cost data suggests that institutions were
                       closed before capital levels were depleted, but losses as a
                       percentage of assets are higher in comparison to losses in the
                       1980s and early 1990s. The degree of losses experienced during
                       this crisis contributed to the depletion of the DIF, which had a
                       negative balance of $7.4 billion as of December 31, 2010.

                       As discussed, the 117 critically undercapitalized institutions were
                       closed promptly as required. We analyzed capital levels one
                       quarter before failure for failed institutions in the current crisis
                       against the capital level of failed institutions for the same period
                       during the 1980s and early 1990s. We found that institutions
                       failing during the current crisis had more capital available to
                       absorb losses than during the 1980s and early 1990s. Failed
                       institutions at this point in the crisis had a median equity-to-asset
                       ratio of 1.76 percent, while institutions that failed between 1980
                       and 1994 had a ratio of negative 1.03 percent.

                       Unfortunately, imbedded loan losses and declines in asset values
                       far exceeded failed banks’ reported equity, resulting in significant
                       losses to the DIF. When a bank fails, the FDIC engages an
                       independent financial advisor to perform an asset valuation review
                       to assign market values to various categories of bank assets. We
                       reviewed information for 190 failed banks and identified a median
                       asset valuation discount of 36 percent from the asset values that
                       the failed banks reported on their books and records. Overall,
                       these banks’ asset book values at the time of failure totaled
                       $175 billion, and the FDIC discounted the value of those assets by
                       a total of $64.7 billion.29

                       Accordingly, the cost of failure from the 325 banks that failed
                       between 2006 and 2011 was significant and is currently
                       estimated to be $82.4 billion.30 Table 7 compares overall loss
                       rates for commercial banks and thrifts for the two periods
                       discussed above.

28
   Differentiating Among Critically Undercapitalized Banks and Thrifts in Prompt Corrective Action in
Banking: 10 Years Later, FDIC Banking Review, Vol. 15, No. 2 (2003).
29
   This discounted value represents the amount that the FDIC estimates the failed bank asset would be
worth if the FDIC had to immediately liquidate the assets at the time of failure. In most cases, the
FDIC enters into Shared-Loss Agreements, which protect assuming institutions against most of the
future losses associated with acquired assets but limit the assuming institution from selling the assets
until they recover in value. Theoretically, the assuming institutions pay the FDIC a greater price for the
failed bank assets, representing the assets’ “intrinsic value” as opposed to the price that the FDIC
would receive by liquidating the assets in a depressed economy.
30
   FDIC cost estimate as of May 17, 2011.

                                                   40
                       Evaluation of Prompt Regulatory Action Implementation
           Table 7: Overall Loss Rates for Banks and Thrifts

                           Period                       All Failures          Banks      Thrifts
             1980 through 1994                             20.61%          11.42%            25.40%
             2006 through 2010                             25.02%          25.05%           24.94%*
             Percent Change                                21.40%         119.35%            -1.81%
           Source: OIG analysis of FDIC’s Failure Transaction Database.
           *Excludes Washington Mutual Bank. Washington Mutual Bank was the largest bank failure
           in history but resulted in no loss to the DIF because the FDIC facilitated the sale of the
           bank to JPMorgan Chase & Co.

                      As illustrated, DIF loss rates were 21.40 percent higher during the
                      current crisis than during the 1980s and early 1990s. Further,
                      many bank failures since January 1, 2006, required an MLR
                      because of the significant losses suffered by the DIF. FDIC
                      officials caution against making loss rate comparisons between
                      the two crises because current loss estimates are the FDIC’s best
                      guess of net losses and recoveries that could occur over the next
                      5 to 10 years.31

                      As a result of the losses from banks failing during the current
                      crisis, the DIF decreased significantly, falling to a negative balance
                      in the third quarter of 2009, as shown in Figure 5.




31
  The FDIC shared-loss agreements mentioned previously include 5- to 10-year loss and recovery
periods that may complicate the FDIC’s ability to estimate bank failure losses.

                                                  41
                      Evaluation of Prompt Regulatory Action Implementation
                     Figure 5: DIF Fund Balance, December 2007 to December 2010




                     Source: December 31, 2010 Quarterly Banking Profile.

                     The DIF is funded by insurance premiums paid by banks. Since
                     1991, the FDIC has been required to employ a risk-based premium
                     system for assessing banks for deposit insurance. As such,
                     premiums are based on an institution’s probability of causing a
                     loss to the DIF due to the composition and concentration of the
                     institution’s assets and liabilities, the amount of loss given failure,
                     and the revenue needs of the fund. Deposit insurance
                     assessments are collected after each quarter ends. In previous
                     reports involving two large bank failures, we reported that the
                     existing assessment rules did not result in the collection of
                     sufficient deposit insurance premiums to address the risks to the
                     DIF presented by the two institutions.32

                     We also determined the insurance premiums assessed to and paid
                     by the 10 institutions that represented the costliest failures for the
                     FDIC during our period of review. Collectively, these 10 banks
                     held assets of $137.6 billion and cost the DIF $36.1 billion in
                     failure costs, roughly 44 percent of the total loss to the DIF during
                     the period January 2006 through December 2010. Consistent
                     with existing deposit insurance rules, the FDIC assessed
                     $385.2 million to cover the period from 2004 through 2011

32
  The FDIC’s Role in the Monitoring of IndyMac Bank (FDIC OIG Report No. EVAL-09-006) issued in
August 2009 and the Evaluation of Federal Regulatory Oversight of Washington Mutual Bank (FDIC
and Treasury OIG Report No. EVAL-10-002) issued in April 2010.

                                                 42
                     Evaluation of Prompt Regulatory Action Implementation
                       (1.07 percent of the loss amount), and these 10 banks paid
                       $243.5 million during this period (0.67 percent of the loss
                       amount).33

                       In an effort to restore fund liquidity, the FDIC Board required
                       insured institutions in November 2009 to prepay assessments for
                       a 3-year period (totaling approximately $45 billion). Also, as
                       discussed later, the Dodd-Frank Act mandated changes to the
                       assessment base that the FDIC uses to calculate insurance
                       premiums. The FDIC has issued final rules to implement the
                       Dodd-Frank Act and to better price for large bank insurance risk.34




33
   These 10 banks also received legislatively mandated deposit insurance credits of $40 million, which
offset their assessed amount.
34
   Large banks are defined as those with $10 billion or more in assets.

                                                   43
                       Evaluation of Prompt Regulatory Action Implementation
                    SECTION III

   Prompt Regulatory Action:
Leading Indicators and Matters for
          Consideration




                                 44
     Evaluation of Prompt Regulatory Action Implementation
PRA: Leading Indicators and Matters for Consideration
             Experience during this recent crisis demonstrates that one of the
             fundamental lessons from the 1980s and 1990s remains valid –
             early intervention is the key to successfully resolving the problems
             of troubled institutions – and intervention must occur before an
             institution experiences financial and capital declines. This lesson
             may become more difficult to apply once the economy improves
             and banks return to profitability. Examiners will again be
             challenged in trying to address risky behavior by ostensibly healthy
             institutions. Going forward, the question is how to effectively
             address safety and soundness concerns prior to financial
             deterioration in order to avoid, or at least lessen, significant
             failures and losses emanating from a future crisis.

             Ongoing Regulatory Responses to the Financial Crisis

             The Congress and federal banking regulatory agencies have
             responded to the financial crisis by planning and undertaking
             numerous initiatives to strengthen regulatory oversight. These
             efforts include the landmark Dodd-Frank Act and internal initiatives
             by the banking agencies. Further, in June 2011, GAO issued a
             study of PCA with recommended actions for the banking agencies.

             The Dodd-Frank Act implements changes that, among other
             things, affect the oversight and supervision of financial
             institutions, provide for a new resolution procedure for large
             financial companies, create a new agency responsible for
             implementing and enforcing compliance with federal consumer
             financial laws, introduce more stringent regulatory capital
             requirements, effect significant changes in the regulation of over-
             the-counter derivatives, reform the regulation of credit rating
             agencies, implement changes to corporate governance and
             executive compensation practices, incorporate limitations on
             proprietary trading, require registration of advisers to certain
             private funds, and effect significant changes in the securitization
             market. The Dodd-Frank Act also established the Financial
             Stability Oversight Council, comprised of representatives from the
             financial regulatory agencies and chaired by the Secretary of the
             Treasury, to identify threats to the financial stability of the United
             States; promote market discipline; and respond to emerging risks
             to the stability of the financial system. The Dodd-Frank Act
             requires the regulators to publish numerous rulemakings to


                                         45
             Evaluation of Prompt Regulatory Action Implementation
implement its provisions, including provisions related to minimum
capital requirements and deposit insurance assessments.

The regulators have begun to incorporate a number of lessons
learned from the financial crisis into their regulatory processes,
including those emanating from the MLR reports. Regulators have
recognized the need to re-emphasize a supervisory approach that
encompasses consideration of an institution’s risk profile in all
facets of the examination process. For example, the purpose of
the FDIC’s Lessons Learned from the Crisis initiative is to build
upon the strengths of the supervision program, emphasize
balanced and timely response to weak management practices and
identified risks, and emphasize a more proactive approach to
examination analysis and ratings based upon the lessons learned
from recent failures. Although the new emphasis is a step in the
right direction, sustaining long-term improvement depends on not
forgetting the lessons learned once the economy and banking
industry improve.

In June 2011, GAO issued a report to Congressional Committees,
entitled Bank Regulation: Modified Prompt Corrective Action
Framework Would Improve Effectiveness (GAO-11-612). GAO
concluded that weaknesses in the current PCA framework stem
primarily from tying mandatory actions to only capital-based
indicators. GAO assessed the utility of various financial indicators
in predicting bank distress by developing a model of leading
indicators of bank failures based on financial ratios that
researchers identified in the 1990s that predicted bank failures in
previous stress periods. GAO found that non-capital measures –
earnings, liquidity, asset quality, and asset concentration risk –
were statistically and practically significant predictors of bank
failure during the current crisis period.

GAO also surveyed 29 informed stakeholders from regulatory
agencies, research organizations, and the banking industry
regarding whether PCA should be changed and, if so, to rank
broad options to make PCA more effective in minimizing losses to
the DIF. Most stakeholders (79 percent) said that PCA should be
modified and preferentially ranked the following top three options
to make the PCA framework more effective:

•   Incorporate an institution’s risk profile (e.g., asset
    concentration exposure) into the PCA capital category
    threshold.

                            46
Evaluation of Prompt Regulatory Action Implementation
•   Raise all of the PCA capital category thresholds.
•   Include an additional trigger to PCA (e.g., a non-capital factor
    related to asset quality or liquidity).

GAO noted that any changes to the PCA framework would entail
some tradeoffs and would require striking the right balance
between more corrective actions and unnecessary intervention in
healthy banks. GAO recommended that the banking agencies
consider the three options and work through the Financial Stability
Oversight Council to make recommendations to Congress on how
PCA should be modified. The banking agencies agreed with
GAO’s recommendation.

Non-Capital Leading Indicators of Bank Problems

As discussed in this report, our findings are consistent with those
reported in GAO’s June 2011 report. That is, capital is a lagging
indicator of troubled institutions and numerous other factors are
better leading indicators of potential troubles and may strengthen
the PRA framework if used as triggers for mandatory regulatory
intervention. These factors are not new. GAO first suggested
many of the factors in 1991 as part of its proposed tripwire
approach, and examiners at the regulatory agencies consider them
during safety and soundness examinations. However, as
discussed in Section II of this report, although examiners generally
identified risk factors early, regulators often did not take formal
corrective action until institutions experienced financial problems.
Common risk factors identified in the earlier crisis or the current
crisis can be categorized as follows:

•   High-risk business strategies — such as aggressive growth;
    asset concentrations; speculative, out-of-territory lending and
    high-risk lending (high loan-to-value, non-traditional lending);
    dependence on volatile funding sources; and excessive
    exposure to interest rate risk.

•   Risk management weaknesses — such as board, management,
    and corporate governance weaknesses; poor executive
    compensation practices; inadequate lending policies; poor
    underwriting practices; poor credit administration practices;
    inadequate loan documentation; and inadequate staffing or
    infrastructure.



                            47
Evaluation of Prompt Regulatory Action Implementation
•   Regulatory compliance and responsiveness — such as
    violations, recommendations, lack of responsiveness to
    examiner findings, and repeat findings.

•   Asset quality or earnings deterioration — credit problems such
    as classified or non-performing assets, poor return on assets
    and return on equity, and declines in stock valuation.

High-risk business strategies and risk management weaknesses
often occur years in advance of financial decline or capital
depletion. Taking formal regulatory action at the point that these
weaknesses are identified would likely yield better results.
Accordingly, greater use of risk factors associated with these
weaknesses is one option for strengthening PRA, as discussed
next.

Matters for Consideration

The PRA provisions were intended to supplement existing
regulatory enforcement tools. Accordingly, we evaluated
regulators’ use of these supplemental enforcement tools and other
supervisory actions to help assess PRA’s effectiveness and
identify areas for improvement. In that regard, the following
considerations are available to the banking agencies that could
potentially strengthen, or indirectly support, the PRA provisions:
(1) develop specific criteria and corresponding enforcement
actions for non-capital factors, (2) increase the minimum PCA
capital levels, and (3) continue to refine the deposit insurance
system to assess greater premiums commensurate with risk-
taking. We recognize that in evaluating these matters there may
be differences with respect to large and small institutions.

Develop Specific Criteria and Corresponding Enforcement Actions
for Non-Capital Factors. As discussed in this report, PCA capital
triggers proved to be too late to rehabilitate troubled institutions,
and regulators generally waited until financial deterioration had
occurred to enforce safety and soundness standards even though
examiners frequently identified non-capital risk factors well in
advance of financial and capital decline.

Under this option, the regulators would develop (1) specific
non-capital factors or standards that correspond to the high-risk
business strategies or risk management practices and asset quality
and earnings-related leading indicators discussed earlier and

                            48
Evaluation of Prompt Regulatory Action Implementation
(2) corresponding enforcement actions, such as limiting an
institution’s growth, restricting the interest rates paid on deposits,
or requiring the institution to increase capital until the deficiency is
corrected.

A clear candidate for a more definitive, regulatory standard is
asset growth, which, when aggressive, can strain or exacerbate
existing weaknesses in a bank’s risk management and credit
administration process. Such conditions often result in excessive
concentrations of poor quality assets. For example, excessive
concentrations in commercial real estate or mortgage loans
factored significantly in the majority of failing banks for which the
Inspectors General conducted MLRs. Other regulatory standards
could be developed related to net non-core funding dependence
(volatile funding dependence) and non-performing and delinquent
loans.

We understand that examiners already have internal benchmarks
(e.g., classified asset levels) that they use to support downgrading
examination ratings and pursuing supervisory action. We also
note that Treasury used specific ratio limits related to classified
assets, non-performing loans, and construction lending under the
Troubled Asset Relief Program (TARP) Capital Purchase Program
to assess institution applicants’ viability for TARP funding. Thus,
there is some precedent for using such benchmarks or limits.

Regulators may also want to revisit developing qualitative
measures for risk factors such as loan underwriting and quality of
management. We understand that it might be difficult to reach
agreement on such measures, due to their subjectivity; however,
such qualitative factors were leading indicators of problems in
many banks that failed during the recent crisis.

The section 39 safety and soundness standards provide an
existing framework for establishing non-capital risk factors. As
discussed in section I of our report, FDICIA required the federal
banking agencies to establish operational and managerial
standards. The regulators had great difficulty establishing and
agreeing on safety and soundness benchmarks for section 39
during the early 1990s. As a result of concerns about regulatory
burden on the banking industry, 1994 legislation eliminated the
requirement to establish quantitative standards. The resulting
safety and soundness standards are broad principles of sound
banking that are subject to considerable interpretation by the

                            49
Evaluation of Prompt Regulatory Action Implementation
regulators. While the standards identify general controls and
processes the regulators expect institutions to have, the standards
do not provide specific, measurable criteria of unsafe conditions or
practices that would trigger mandatory enforcement actions.

The regulators could develop a new framework of non-capital
factors. Any framework should present specific standards or
factors, include corresponding mandatory enforcement measures,
and, preferably, be grounded in regulation. Alternatively, the
regulators could revisit section 39 and reissue more specific
standards as regulations.

Advantages of this option are that it would provide the regulators
with an additional enforcement tool that is not dependent on
financial decline. It also reduces the discretion of regulators and
forces them to take formal enforcement action in the event that a
bank does not implement a corrective plan. Firm, specific
standards would also provide the industry with clarity on when
regulators would begin pursuing formal action and provide
examiners with a clearer basis for examination ratings and
supervisory actions, regardless of whether a bank is profitable. In
this regard, regulators told us that one benefit of PCA is that
everyone – the banking industry, investors, and examiners – has a
common understanding of the rules and the implications when
minimum capital levels are breached.

We understand that it may be difficult for regulators to agree on
non-capital factors that should be considered for enforcement.
Regulators also expressed concern that the banking industry will
quickly identify loopholes or find ways around “bright-line”
regulatory limits, and regulators’ ability to quickly adapt to banking
industry efforts to circumvent non-capital factors or standards
could be impaired. Regulators also view section 39 enforcement
actions as duplicative of other formal enforcement actions, and
stated they can accomplish what they need to with consent
orders. However, as noted in this report, regulators must have the
willingness to use enforcement actions in controlling risky, but
otherwise profitable institutions, and regulators did not display this
willingness during the time leading up to the past two banking
crises.

Increase the Section 38 Capital Thresholds. The financial ratios
used to define section 38 undercapitalization categories were
established by regulation in 1992 and have remained unchanged

                            50
Evaluation of Prompt Regulatory Action Implementation
                       since that time. The current crisis indicates that many institutions
                       became undercapitalized suddenly and severely, and the resulting
                       section 38 mandatory actions had little time to resolve the
                       problems of an institution. Higher capital floors for the
                       undercapitalized and significantly undercapitalized categories (the
                       critically undercapitalized level is statutory) may provide more time
                       for mandatory actions to take effect and rehabilitate troubled
                       institutions. As discussed in Section II, a 1996 study by FRB
                       economists concluded that raising the leverage ratio threshold that
                       triggers mandatory PCA intervention from 4 percent to 5 percent
                       would cause PCA to more closely mimic the timing of problem
                       bank identification by examiners.35 Given the losses to the DIF
                       from the recent crisis, Congress may also wish to revisit the
                       statutory 2-percent critically undercapitalized threshold to provide
                       an increased capital buffer to further shift the cost of failure to
                       shareholders rather than the DIF.

                       As discussed in Section II, the Dodd-Frank Act strengthened
                       capital in the banking industry, and the Basel Committee on
                       Banking Supervision recently released guidelines recommending
                       increased capital requirements to be phased in by January 1, 2015
                       (Basel III).36 The banking agencies are also developing rules to
                       implement Basel III proposals for raising the quality and quantity of
                       regulatory capital and setting new liquidity standards. The
                       agencies issued a Notice of Proposed Rulemaking in January 2011
                       that proposes to implement the Basel Committee's 2009 revisions
                       to the existing market risk capital rule, and the agencies are
                       planning to issue a Notice of Proposed Rulemaking later in 2011
                       that will seek comment on plans to revise the risk-based capital
                       guidelines to implement Basel III increased capital requirements.

                       Advantages of this option are that increased capital levels would
                       create an incentive for banks to hold greater amounts of capital,
                       and banks would be in a better position to absorb losses,
                       withstand borrower defaults, and remain solvent. Using higher
                       capital levels as triggers should also result in examiners identifying
                       and addressing troubled banks earlier and lower bank failure costs
                       to the DIF. However, banks will likely find it more expensive to
                       hold additional capital and might limit lending or charge more for
                       credit as a result. Further, higher capital levels might result in

35
   The Use of Capital Ratios to Trigger Intervention in Problem Banks: Too Little, Too Late,
September/October 1996, New England Economic Review.
36
   Basel III: A global regulatory framework for more resilient banks and banking systems, Basel
Committee on Banking Supervision (Dec. 2010).

                                                   51
                       Evaluation of Prompt Regulatory Action Implementation
                       regulatory intervention in the operation of otherwise healthy
                       banks.

                       Continue to Refine the Deposit Insurance System to Assess
                       Greater Premiums Commensurate with Risk-Taking. As discussed
                       in Section II, the existing deposit insurance rules did not allow the
                       FDIC to assess or collect insurance premiums sufficient to address
                       the losses caused by the costliest failures.

                       In response to the crisis, the Congress and the regulators have
                       taken steps to make the deposit insurance system more
                       risk-based. For example, the Dodd-Frank Act directed the FDIC to
                       amend its regulations to redefine the deposit insurance
                       assessment base from average domestic deposits to average total
                       consolidated assets minus average tangible equity.37 This change
                       will expand the base on which deposit insurance premiums are
                       calculated, especially for larger institutions. In February 2011, the
                       FDIC amended the deposit insurance regulations to implement the
                       assessment base changes and revise the assessment system for
                       large insured depository institutions.38

                       The implementing regulations amend the assessment system
                       applicable to large insured depository institutions to better capture
                       risk at the time the institution assumes the risk, to better
                       differentiate risk among large insured depository institutions during
                       periods of good economic and banking conditions based on how
                       they would fare during periods of stress or economic downturns,
                       and to better take into account the losses that the FDIC may incur
                       if a large insured depository institution fails. Going forward,
                       assessments for large banks will be calculated using a scorecard
                       that combines CAMELS ratings and certain forward-looking
                       financial measures to assess the risk a large institution poses to
                       the DIF. These financial measures include scorecard measures
                       related to:

                       •   a bank’s ability to withstand asset-related stress – which
                           includes a higher-risk asset concentration measure, the ratio of


37
   This change expanded the base on which assessments are calculated to include non-domestic
deposit liabilities such as foreign deposits and other secured liabilities and will result in larger banks
paying proportionately more for deposit insurance because those liabilities were not previously included
in the assessment base.
38
   The final rule generally defines a large institution as one having assets of $10 billion or more (76
Fed. Reg. 10672 Feb. 25, 2011).

                                                   52
                       Evaluation of Prompt Regulatory Action Implementation
    earnings to assets, and a classified or underperforming asset
    ratio;
•   a bank’s ability to withstand funding-related stress – which
    includes a core deposits to total liabilities ratio and a balance
    sheet liquidity ratio that measures the amount of highly liquid
    assets needed to cover potential cash outflows in the event of
    stress; and
•   a loss severity score – which estimates the relative magnitude
    of potential losses to the FDIC in the event of a large
    institution’s failure.

The changes to the assessment base and large-bank pricing
system should allow the FDIC to better price deposit insurance for
risk, especially for large institutions.

For smaller institutions, however, the assessment rates continue
to be based on a combination of the bank’s capital levels and
supervisory ratings, consisting of an institution’s weighted
CAMELS component ratings and selected financial ratios (including
ratios related to past due loans, nonperforming assets, net loan
charge-offs, net income before taxes, and Tier 1 leverage capital).
Institutions in higher risk categories may also face an adjustment
related to brokered deposit levels.

Nine of the 325 banks that failed during our sample period were
large banks with assets over $10 billion. While those large banks
accounted for 41 percent of the losses to the DIF, the remainder
of DIF losses ($48.48 billion) was due to failures by banks with
assets of less than $10 billion. Opportunities may exist for the
FDIC to continue to refine the deposit insurance system to assess
premiums more commensurate with risk-taking for smaller
institutions. The asset- and funding-related stress measurements
(e.g., asset concentration risk, balance sheet liquidity risk, etc.)
that the FDIC implemented for large banks were relevant issues in
many of the small- and mid-size bank failures during the past few
years.

Advantages of the further refinement of the deposit insurance
system for smaller institutions are that insurance premiums would
(1) establish a better risk-based assessment approach that
captures risk at the time that small banks assume the risk,
(2) better price deposit insurance for risk among small institutions,
and (3) take a more forward-looking view of risk. This option may
also be more acceptable to the banking industry than placing

                            53
Evaluation of Prompt Regulatory Action Implementation
absolute limits on bank activities. However, it is important to note
that the assessment system already considers the CAMELS
component ratings, thus there is already some consideration of
additional measurements related to asset quality, management,
liquidity, etc. In addition, because insurance premiums are
assessed a quarter in arrears, the FDIC may not receive premium
payments for troubled or failing institutions.

Recommendation

To improve the effectiveness of the PRA framework and to meet
the section 38 and 39 goals of identifying problems early and
minimizing losses to the DIF, we recommend that the FDIC, FRB,
and OCC agency heads review the matters for consideration
presented in this report and work through the Financial Stability
Oversight Council to determine whether the PRA legislation or
implementing regulations should be modified. As a recap, the
matters for consideration are (1) develop specific criteria and
corresponding enforcement actions for non-capital factors,
(2) increase the minimum PCA capital levels, and (3) continue to
refine the deposit insurance system for banks with assets under
$10 billion to assess greater premiums commensurate with risk-
taking.

Agency Comments and OIG Evaluation

We provided a draft of this report to the FRB, FDIC, and OCC for
review and comment. The agencies provided technical comments,
which we incorporated into the final report, where appropriate.
The agencies also provided written comments that we have
included in their entirety at appendix 5.

FRB’s Response

The FRB stated that staff has initiated a process to develop criteria
and corresponding enforcement actions for non-capital factors.
Specifically, the response stated that FRB staff has developed an
examination issues tracking process to enhance the monitoring of
supervisory findings for each affected institution in response to
FRB OIG MLR conclusions that there were opportunities for the
FRB to take earlier and more forceful supervisory actions to
address safety and soundness examination findings. FRB believes
effective implementation of this process will minimize uncorrected
safety and soundness weaknesses, which should lead to more

                            54
Evaluation of Prompt Regulatory Action Implementation
timely supervisory attention and accelerated enforcement actions
to address supervisory concerns.

The FRB will continue to consider increasing the minimum PCA
capital levels as part of the interagency work underway to review
and improve capital standards based on Dodd-Frank requirements
and the implementation of the Basel III capital accord in the United
States. The FRB deferred to the FDIC regarding matters raised in
our report related to refining the deposit insurance system for
banks with assets under $10 billion.

OIG Comment

The FRB’s response and planned actions address the intent of our
recommendation.

FDIC Response

The FDIC acknowledged that early warning factors identified in
our report could be indicators of inappropriate risk-taking and
agreed that the agencies should undertake a comprehensive
review of these and other factors, along with corresponding
supervisory actions, that could augment the existing PRA
framework. The FDIC responded that both the agencies and the
industry stand to benefit from the transparency and improved risk
management that appropriate non-capital standards and
supervisory responses could provide.

With respect to the second matter to be considered, the FDIC
noted that the consensus of lessons-learned studies undertaken
after the recent financial crisis is that capital requirements should
be strengthened. The FDIC agreed to consider possibly modifying
the PCA capital tripwires in the context of reviewing comments on
an upcoming Notice of Proposed Rulemaking for the domestic
implementation of the Basel III standards.

The FDIC also agreed that refining the deposit insurance system
for banks with assets under $10 billion could improve the
alignment of premiums and risk taking and noted that staff is
currently analyzing the initial performance of the new large bank
pricing method. When this analysis is complete, staff will draw
upon it to determine whether features of the large bank pricing
methodology or other changes may improve the pricing method for
small banks. The FDIC responded that by September 1, 2012, the

                            55
Evaluation of Prompt Regulatory Action Implementation
FDIC Division of Insurance and Research staff will provide to the
Chairman an analysis, with recommendations where appropriate,
of refinements to the deposit insurance pricing method for banks
with assets under $10 billion.

OIG Comment

The FDIC’s planned actions address the intent of our
recommendation.

OCC Response

With regard to developing specific criteria and corresponding
enforcement actions for non-capital factors, the OCC stated that it
has implemented, or is in process of implementing, numerous
changes to its supervisory processes in response to the lessons
learned from the recent severe recession. The OCC stated that
hard wired PCA requirements that incorporate all the analysis that
goes into its supervisory judgments would be extremely hard to
implement without unintended consequences. The OCC also
stated it already has enough supervisory tools to intervene at
crucial stages of an institution’s financial stress and that it did not
think legislative changes to PCA were needed and expects that
increases in the minimum PCA capital levels will be an outcome of
the rulemakings that implement the Basel capital accord
requirements. The OCC also deferred to the FDIC regarding
matters raised in our report related to refining the deposit
insurance system for banks with assets under $10 billion.

OIG Comment

The OCC’s response addressed the intent of our recommendation
in that the OCC reviewed, deliberated, and responded to each of
the matters for consideration. We encourage the OCC to work
with the FRB and the FDIC in considering whether specific criteria
and corresponding enforcement actions for non-capital factors can
be developed. We believe that, by working together, the agencies
can develop a framework to enhance the examiner’s ability to
address problems before significant losses occur, create a set of
expectations among bank regulators concerning any enforcement
actions that follow, and mitigate any unintended consequences.




                            56
Evaluation of Prompt Regulatory Action Implementation
                     Further, we note that in response to GAO’s June 23, 2011, PCA
                     report,39 the OCC agreed to consider (1) additional triggers that
                     would require early and forceful regulatory actions tied to specific
                     unsafe banking practices and (2) incorporating an institution’s risk
                     profile into the PCA capital category thresholds. We believe that
                     the actions that the OCC takes to address GAO’s
                     recommendations will also be responsive to our recommendation.

                     Finally, we want to clarify that our report did not recommend
                     “hard wired PCA requirements” or “legislative changes to PCA.”
                     Rather, we recommended that the regulators consider establishing
                     non-capital factors outside of the PCA framework. Such factors
                     may or may not be quantitative and could range in specificity from
                     a modest expansion of the implementing criteria for the existing
                     safety and soundness standards to firm thresholds or limits, such
                     as specific asset growth or concentration limits. Careful
                     consideration by all three regulators will be necessary in order to
                     develop effective, acceptable non-capital factors that provide a
                     leading indication of risk.

                                                            * * *

                     We would like to extend our appreciation to the FRB, OTS, FDIC,
                     and OCC for the cooperation extended to our staffs during the
                     evaluation. Major contributors to this report are listed in
                     Appendix 6.




/s/                              /s/                                /s/
Jon T. Rymer                     Eric M. Thorson                    Mark Bialek
Inspector General                Inspector General                  Inspector General
Federal Deposit Insurance        Department of the                  Board of Governors of the
Corporation                      Treasury                           Federal Reserve System




39
 Bank Regulation: Modified Prompt Corrective Action Framework Would Improve Effectiveness,
GAO-11-612, dated June 23, 2011.

                                                 57
                     Evaluation of Prompt Regulatory Action Implementation
Appendix 1
Objectives, Scope, and Methodology




Objectives

Our objectives were to: (1) determine the purpose of and
circumstances that led to the enactment of the PRA provisions
and lessons learned from the banking and thrift crisis in the 1980s
and early 1990s; (2) evaluate to what extent PRA provisions were
a factor in bank failures and problem institutions during the current
crisis (i.e., 2007 through the present); (3) assess whether PRA
provisions prompted federal banking regulators to act more quickly
and more forcefully to limit losses to the DIF in the current crisis in
light of lessons learned from the 1980s and early 1990s; and
(4) determine whether there are other non-capital measures that
provide a leading indication of risks to the DIF that should be
considered as part of PRA.

Scope and Methodology

We conducted this evaluation from May 2010 through May 2011
in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation and performed the following procedures:

To determine the purpose of and circumstances that led to the
enactment of the PRA provisions and lessons learned from the
banking and thrift crisis in the 1980s and early 1990s, we:

•   reviewed the PRA provisions and developed a legislative
    history;

•   gained an understanding of problems encountered and lessons
    learned from the 1980s and 1990s crisis by reviewing: the
    Department of the Treasury’s February 1991 report to
    Congress, Modernizing the Financial System,
    Recommendations for Safer, More Competitive Banks; History
    of the Eighties – Lessons for the Future; Deposit Insurance: A
    Strategy for Reform (GAO/GGD-91-26); and Bank Supervision:
    Prompt and Forceful Regulatory Actions Needed
    (GAO/GGD-91-69); and

•   reviewed and summarized relevant issues from prior reviews of
    PRA effectiveness.

                            58
Evaluation of Prompt Regulatory Action Implementation
Appendix 1
Objectives, Scope, and Methodology




To evaluate to what extent PRA provisions were a factor in bank
failures and problem institutions during the current crisis, we:

•   reviewed agency supervision policies and procedures
    concerning the use of sections 38 and 39;

•   conducted interviews with supervision and legal staff regarding
    the extent to which agencies use PRA provisions, the barriers
    to using sections 38 or 39 enforcement actions, and the extent
    agencies use other enforcement actions to address capital and
    non-capital issues. We also solicited views regarding PRA
    effectiveness, the appropriateness of current capital levels for
    section 38, and the potential impact of Basel III;

•   determined and reviewed the population of all problem and
    undercapitalized banks for the scope period (January 1, 2006
    through March 31, 2010). With the assistance of the FDIC’s
    Division of Insurance and Research (DIR), we selected a
    statistically valid random sample of PCA and problem banks
    with a 90-percent confidence interval and a 3-percent margin
    of error. We analyzed the banks affected by PCA according to
    their status as failed, problem, or neither. We compiled data
    about sample items related to supervisory history, problem
    bank status, PCA levels, and associated enforcement actions;

•   evaluated the timeliness of PCA by determining the length of
    time between banks reaching undercapitalized status and
    failure and by determining the capital level at which the banks
    failed. We tracked elapsed day information for when problems
    were first identified, when CAMELS ratings declined, when
    PCA levels declined, and when the FDIC pursed enforcement
    actions;

•   assessed the function of PCA as an early identifier of problems
    by determining whether problem and PCA banks appeared on
    the problem bank list or undercapitalized level first. We used
    the random sample selected above to determine the reasons
    banks were on the problem list or reasons for failure for failed
    PCA banks. We compared capital triggers to other factors;


                            59
Evaluation of Prompt Regulatory Action Implementation
Appendix 1
Objectives, Scope, and Methodology




•   evaluated the correlation between problem banks and PCA by
    analyzing problem bank and PCA status by quarter;

•   determined the correlation between the Capital CAMELS
    component rating and PCA status by quarter;

•   obtained and reviewed (for sample items) quarterly PCA
    regional reports; and

•   reviewed the enforcement actions used by regulators for PCA
    and problem banks and identified enforcement trends.

To assess whether PRA provisions prompted federal regulators to
act more quickly and more forcefully to limit losses to the DIF in
the current crisis based on lessons learned from the 1980s and
early 1990s, we:

•   worked with FDIC DIR staff to identify and obtain historical
    data and statistics from the 1980s and 1990s crisis pertaining
    to information such as enforcement actions, capital levels,
    bank failures, and loss rates;

•   compared historical data and statistics from the 1980s and
    1990s crisis pertaining to information such as enforcement
    actions, capital levels, bank failures, and loss rates against data
    for the current crisis; and

•   analyzed the cost of failed banks during the current crisis as
    compared to the 1980s and 1990s crisis as a percentage of
    assets.

To determine whether there are other non-capital measures that
provide a leading indication of risks to the insurance fund that
should be considered as part of PRA, we:

•   identified other non-capital factors that could serve as a better
    early warning mechanism than PCA based on reviews of MLR
    reports and interviews with FDIC, OCC, OTS, and FRB officials;



                            60
Evaluation of Prompt Regulatory Action Implementation
Appendix 1
Objectives, Scope, and Methodology




•   reviewed agency rules and regulations associated with PCA
    and the Safety and Soundness Standards;

•   interviewed agency officials regarding their understanding of
    the history and purpose of PRA provisions; and

•   reviewed applicable agency rulemakings to implement Dodd-
    Frank Act provisions and to strengthen the deposit insurance
    assessment system.




                            61
Evaluation of Prompt Regulatory Action Implementation
                Appendix 2
                Data by Regulator




        This appendix contains selected data for each of the four primary federal
        regulators.

        There were 489 banks affected by PCA from January 1, 2006 through
        March 31, 2010. Table 8 provides information about PCA banks by
        regulator and by bank status as of December 31, 2010.

        Table 8: PCA Banks by Primary Federal Regulator (PFR)
                                                                 Neither
                                                               Problem Nor
           PFR          Failed        Problem Bank                Failed          Agency Total
         FDIC                   178             109                      27                314
         FRB                     32              11                        6                 49
         OCC                     44              19                      10                  73
         OTS                     37              13                        3                 53
         Totals                 291             152                      46                489
        Source: OIG analysis of FDIC data.

        We reviewed 120 MLR reports to determine the sequence of events in
        bank failures. Table 9 provides a breakout by regulator of the Figure 4
        timeline in the main body of the report.

Table 9: Failed Bank Timeline by Regulator

                                Informal                             Formal
              Problem         Enforcement                         Enforcement
PFR          Identifieda         Action        Rated 4 or 5b         Action        Undercapitalizedc
                                 Median Number of Days Before Failure
FDIC                886              402           269              104                            115
FRB               1,211              992           340              280                            106
OCC               1,060              264           261              232                             82
OTS               2,159              308           274              244                            100
Source: OIG analysis of Material Loss Reviews

a
 Examiners initially identified the problem that ultimately led to the bank's failure.
b
  Bank is assigned a composite CAMELS rating of “4”or “5” for the first time.
c
 Bank is first undercapitalized, significantly undercapitalized, or critically undercapitalized.




                                             62
                Evaluation of Prompt Regulatory Action Implementation
      Appendix 2
      Data by Regulator




Table 10 shows loss rate information by regulator as of May 17, 2011.

       Table 10: Loss Rate Information by Regulator
                           Number of
                          Failed Banks      Loss Estimates           Loss
             PFR           2006-2010          (in billions)       Percentage
        FDIC                          194               $38.9            31.00%
        FRB                            34                $5.8            28.86%
        OCC                            53                $9.5            22.26%
        OTS*                           43               $28.2            27.45%
        Total*                        324               $82.4            28.80%
       Source: OIG analysis of DIF estimated losses.
       *Washington Mutual Bank was excluded because Washington Mutual Bank
       had significant assets at failure and did not result in a loss to the DIF.
       Including Washington Mutual Bank would result in a 6.82 percent loss for OTS
       and a 13.28 total loss percentage.




                                  63
      Evaluation of Prompt Regulatory Action Implementation
Appendix 3
Prior Reviews of PRA Effectiveness




Regulators’ implementation of PRA provisions has been assessed
previously by our offices and GAO in four separate studies. In
general, all the prior studies noted that the regulators effectively
used section 38 provisions when an institution became
undercapitalized and found there was little use of the section 39
provisions to correct problems before capital deterioration.

GAO Report - Bank and Thrift Regulation: Implementation of
FDICIA’s Prompt Regulatory Action Provisions (GAO/GGD-97-18).
In this November 1996 report, GAO assessed regulators’ progress
in implementing FDICIA’s PRA provisions, as amended, and the
impact of sections 38 and 39 of the FDI Act on federal oversight
of the banking industry. GAO reported that the effectiveness of
sections 38 and 39 could not be determined at the time because
only a few institutions had been subject to enforcement actions
under section 38 and, as of September 1996, regulators had not
used their section 39 enforcement authority. Although GAO
reported that section 38 gave depository institutions a strong
incentive to increase capital levels to avoid mandatory restrictions
and supervisory actions associated with being undercapitalized,
GAO emphasized that the capital-based safeguards are inherently
limited because capital does not typically show a decline until an
institution has experienced substantial deterioration in other
components of its operations and finances. Consequently, by the
time seriously troubled institutions become subject to section 38’s
mandatory restrictions and enforcement actions, there may be few
options available to prevent or minimize losses to the DIF.

Further, GAO stated that section 39, as amended, does not
appear to significantly change the wide discretion that regulators
have regarding the timing and severity of enforcement actions
taken against troubled institutions. Section 39 was intended to
increase the likelihood that regulators would take action to
address safety-and-soundness problems before they result in the
deterioration of capital. However, the guidelines and regulations
issued by the regulators to implement section 39 do not
(1) establish clear, objective criteria for what would be considered
to be unsafe and unsound practices or conditions or (2) link the
identification of such conditions to specific mandatory
enforcement actions.



                            64
Evaluation of Prompt Regulatory Action Implementation
                        Appendix 3
                        Prior Reviews of PRA Effectiveness




                        FDIC OIG Report – The Effectiveness of Prompt Corrective Action
                        Provisions in Preventing or Reducing Losses to the Deposit
                        Insurance Funds (Audit Report No. 02-013). The objective of this
                        2002 report was to determine the effectiveness of PCA provisions
                        in preventing or reducing losses to the insurance funds at the time
                        and specifically focused on determining whether section 38
                        actions were implemented in a timely manner for three failed
                        institutions. Those three institutions accounted for about $1.17
                        billion in losses or approximately 80 percent of the $1.46 billion in
                        total losses to the insurance funds from January 1997 to
                        September 2001. The three institutions had a similar business
                        strategy, which was to originate subprime loans, securitize those
                        loans, and retain residual assets40 generated through the
                        securitization process.

                        This report stated that regulatory agencies rely on data prepared
                        and submitted by institutions and that data may not always be
                        reliable. In this case, the report concluded that section 38
                        provisions were not effective because prompt corrective actions
                        could not be implemented timely primarily because the institutions
                        valued the residual assets in a manner that increased income and
                        inflated their reported capital balances above minimum capital
                        levels that require regulators to invoke action.41 The report also
                        noted that section 38(g) lacked specific criteria for non-capital
                        measures and recommended further study of that issue.

                        FDIC OIG Report - The Role of Prompt Corrective Action as Part of
                        the Enforcement Process (Audit Report No. 03-038). The
                        objective of this 2003 audit was to determine whether PCA
                        provisions were used as part of the FDIC’s enforcement process
                        and served to reduce the losses to the DIF. The report found that
                        PCA directives were part of the FDIC’s supervisory process and
                        prevented or reduced losses to the DIF. The report noted that the
                        non-capital section 38(g) provisions were seldom used.


40
   Residual assets are valued using three assumptions: default rates, prepayment rates, and discount
rates. Optimistic assumptions in any one of those rates will increase the value of the residuals.
41
   The report noted that the federal banking regulators issued a final rule that limits the concentration
of residual assets and establishes requirements for total risk-based capital in relationship to residual
assets.

                                                    65
                        Evaluation of Prompt Regulatory Action Implementation
                          Appendix 3
                          Prior Reviews of PRA Effectiveness




                          The report also outlined a number of factors that impacted the
                          effectiveness of section 38 capital-related provisions, including the
                          fact that the foundation of section 38 is capital, which can be a
                          lagging indicator of an institution’s operational and financial
                          problems. In addition, the report discussed the fact that the
                          implementation of PCA depends on the accuracy of capital ratios
                          reported in Call Reports,42 which may not always be accurate.

                          GAO Report – Deposit Insurance – Assessment of Regulators’ Use
                          of Prompt Corrective Action Provisions and FDIC’s New Deposit
                          Insurance System (GAO-07-242). This report was required by the
                          Federal Deposit Insurance Reform Conforming Amendments Act of
                          2005.43 GAO again emphasized that although regulators generally
                          used PCA appropriately, capital is a lagging indicator and thus not
                          necessarily a timely predictor of problems at banks and thrifts. In
                          most cases GAO reviewed, regulators responded to safety and
                          soundness problems in advance of a bank or thrift’s decline in
                          required PCA capital levels.

                          With respect to non-capital related supervisory actions regulators
                          can take under section 38 and 39, GAO found that regulators
                          generally made limited use of those authorities, in part because
                          they chose other informal or formal actions to address problems at
                          troubled institutions. The report states that according to
                          regulators, other tools, such as cease and desist orders, may
                          provide more flexibility than those available under sections 38 and
                          39 because they are not tied to an institution’s capital level and
                          may allow them to address more complex or multiple deficiencies
                          with one action.




42
     See Glossary in Appendix 4 for a definition of Call Report.
43
     Pub. L. No. 109-173.

                                                      66
                          Evaluation of Prompt Regulatory Action Implementation
                   Appendix 4
                   Glossary of Terms




Call Report                        Every national bank, state member bank, and insured
                                   nonmember bank is required by the Federal Financial
                                   Institutions Examination Council to file consolidated
                                   Reports of Condition and Income (Call Report) as of
                                   the close of business on the last day of each calendar
                                   quarter.

CAMELS                             An acronym for the performance rating components:
                                   Capital adequacy, Asset quality, Management
                                   practices, Earnings performance, Liquidity position,
                                   and Sensitivity to market risk. Numerical values
                                   range from 1 to 5, with 1 being the highest rating
                                   and 5 representing the worst-rated banks.

Concentration                      A group of similar types of assets or liabilities that,
                                   when aggregated, exceed 25 percent of the
                                   institution’s core capital plus allowance for loan and
                                   lease losses. Concentrations may include direct,
                                   indirect, and contingent obligations or large purchases
                                   of loans from a single counterparty. Some higher-risk
                                   asset or liability types (e.g., residual assets) may
                                   warrant monitoring as concentrations even if they do
                                   not exceed 25 percent of core capital plus an
                                   allowance for loan lease losses.

Deposit Insurance Fund             The DIF was created in 2006, when the Federal
                                   Deposit Insurance Reform Act of 2005 provided for
                                   the merging of the Bank Insurance Fund and the
                                   Savings Association Insurance Fund. The FDIC
                                   administers the DIF, the goal of which is to (1) insure
                                   the deposits and protect the depositors of DIF-insured
                                   institutions and (2) upon appointment of the FDIC as
                                   receiver, resolve failed DIF-insured institutions at the
                                   least possible cost to the DIF (unless a systemic risk
                                   determination is made). The DIF is primarily funded
                                   from deposit insurance assessments.

Leverage Capital Ratio             Defined in 12 C.F.R. §325(m) as the ratio of Tier 1
                                   capital to total assets. Total assets means the
                                   average of total assets required to be included in a


                                               67
                   Evaluation of Prompt Regulatory Action Implementation
                  Appendix 4
                  Glossary of Terms




                                  banking institution's Call Report or, for savings
                                  associations, the consolidated total assets required to
                                  be included in the Thrift Financial Report. Because
                                  these reports may from time to time be revised, the
                                  calculation should use total assets as of the most
                                  recent report date (and after making any necessary
                                  subsidiary adjustments for state nonmember banks as
                                  described in §325.5(c) and 325.5(d) of this part),
                                  minus

                                  •   intangible assets (other than mortgage servicing
                                      assets, nonmortgage servicing assets, and
                                      purchased credit card relationships eligible for
                                      inclusion in core capital pursuant to §325.5(f)),
                                  •   credit-enhancing interest-only strips that are not
                                      eligible for inclusion in core capital pursuant to
                                      §325.5(f),
                                  •   deferred tax assets in excess of the limit set forth
                                      in §325.5(g),
                                  •   assets classified loss and any other assets that are
                                      deducted in determining Tier 1 capital, and
                                  •   the amount of the total adjusted carrying value of
                                      nonfinancial equity investments that is subject to
                                      a deduction from Tier 1 capital as set forth in
                                      section II.B.(6) of appendix A to this part.

Material Loss Review              A material loss review reports on the causes of bank
                                  failure and the primary federal banking regulator’s
                                  supervision of that institution. Before July 21, 2010,
                                  a material loss was defined as a loss to the DIF that
                                  was in excess of the greater of $25 million or 2
                                  percent of an institution’s total assets at the time the
                                  FDIC was appointed receiver. Amended by the
                                  Dodd-Frank Act, effective July 21, 2010, section
                                  38(k) defines a loss as material if it exceeds $200
                                  million for calendar years 2010 and 2011, $150
                                  million for calendar years 2012 and 2013, and $50
                                  million for calendar years 2014 and thereafter (with a
                                  provision that the threshold can be raised temporarily
                                  to $75 million if certain conditions are met).


                                              68
                  Evaluation of Prompt Regulatory Action Implementation
                    Appendix 4
                    Glossary of Terms




Problem Bank                        Problem banks are institutions included on the
                                    Problem Financial Institution List, commonly referred
                                    to as the Problem Bank List, which is developed by
                                    the FDIC and consists of financial institutions that are
                                    rated CAMELS composite 4, meaning the institution
                                    exhibited unsafe or unsound practices or conditions,
                                    or composite 5, meaning the institution exhibited
                                    extremely unsafe and unsound practices or
                                    conditions.

Prompt Corrective Action            A framework of supervisory actions, set forth in
                                    12 U.S.C. §1831o, for insured depository institutions
                                    that are not adequately capitalized. It was intended
                                    to resolve the problems of the insured depository
                                    institutions at the least possible long-term loss to the
                                    DIF. The capital categories are well capitalized,
                                    adequately capitalized, undercapitalized, significantly
                                    undercapitalized, and critically undercapitalized.

Thrift Financial Report             A financial report that thrifts are required to file
                                    quarterly. The report includes detailed information
                                    about the institution's operations and financial
                                    condition, and must be prepared in accordance with
                                    generally accepted accounting principles. The thrift
                                    financial report for thrifts is similar to the Call Report
                                    required of commercial banks.

Tier 1 Risk-Based Capital Ratio Tier 1 capital is defined, as

                                    The sum of:

                                    •   Common stockholder’s equity (common stock and
                                        related surplus, undivided profits, disclosed capital
                                        reserves, foreign currency translation adjustments,
                                        less net unrealized losses on available-for-sale
                                        securities with readily determinable market
                                        values);
                                    •   Non-cumulative perpetual preferred stock; and
                                    •   Minority interest in consolidated subsidiaries;


                                                69
                    Evaluation of Prompt Regulatory Action Implementation
                   Appendix 4
                   Glossary of Terms




                                   Minus:
                                   • identified losses;
                                   • certain intangible assets;
                                   • investment in securities subsidiaries subject to
                                      section 537.4; and
                                   • deferred tax assets in excess of the limit set in
                                      section 325.5(g).

Total Risk-Based Capital Ratio     Defined under 12 C.F.R. §325(y) as the ratio of
                                   qualifying total capital to risk-weighted assets, as
                                   calculated in accordance with the FDIC's Statement
                                   of Policy on Risk-Based Capital (appendix A to
                                   subpart A of Part 325).




                                               70
                   Evaluation of Prompt Regulatory Action Implementation
Appendix 5
Regulators’ Responses




                            71
Evaluation of Prompt Regulatory Action Implementation
Appendix 5
Regulators’ Responses




                            72
Evaluation of Prompt Regulatory Action Implementation
Appendix 5
Regulators’ Responses




                            73
Evaluation of Prompt Regulatory Action Implementation
Appendix 5
Regulators’ Responses




                            74
Evaluation of Prompt Regulatory Action Implementation
Appendix 5
Regulators’ Responses




                            75
Evaluation of Prompt Regulatory Action Implementation
Appendix 5
Regulators’ Responses




                            76
Evaluation of Prompt Regulatory Action Implementation
Appendix 6
Major Contributors to This Report




FDIC OIG Headquarters

Corinne M. Torongo, Auditor
Margaret B. Wolf, Senior Audit Specialist
Mary C. Carmichael, Evaluations Manager

E. Marshall Gentry, Assistant Inspector General for Evaluations


Federal Reserve Board of Governors OIG

Victor H. Calderon, Senior Information Technology Auditor
Jonathan Park, Auditor
Timothy P. Rogers, OIG Manager

Anthony J. Castaldo, Associate Inspector General for Inspections
and Evaluations


Treasury OIG Headquarters

Jeffrey Dye, Audit Director
James L. Lisle, Audit Manager
Christen J. Stevenson, Auditor
Robert A. Taylor, Jr., Deputy Assistant Inspector General for Audit

Marla A. Freedman, Assistant Inspector General for Audit




                             77
Evaluation of Prompt Regulatory Action Implementation
Appendix 7
Final Report Distribution




Board of Governors of the Federal Reserve

    Chairman

Federal Deposit Insurance Corporation

    Acting Chairman

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency

The Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of Management and Budget

    Treasury OIG Budget Examiner




                             78
Evaluation of Prompt Regulatory Action Implementation
